<html>
<title> - THE USE OF IN LIEU OF, AD HOC AND AUGMENTEE FORCES IN OPERATIONS ENDURING FREEDOM AND IRAQI FREEDOM</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                         [H.A.S.C. No. 110-81]
 
                     THE USE OF IN LIEU OF, AD HOC 

                        AND AUGMENTEE FORCES IN 

                      OPERATIONS ENDURING FREEDOM 

                           AND IRAQI FREEDOM 

                               __________

                                HEARING

                               BEFORE THE

                         READINESS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             JULY 31, 2007

                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               ----------

                         U.S. GOVERNMENT PRINTING OFFICE 

38-670 PDF                      WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

                                     
  



















































                         READINESS SUBCOMMITTEE

                   SOLOMON P. ORTIZ, Texas, Chairman
GENE TAYLOR, Mississippi             JO ANN DAVIS, Virginia
SILVESTRE REYES, Texas               WALTER B. JONES, North Carolina
LORETTA SANCHEZ, California          J. RANDY FORBES, Virginia
ROBERT A. BRADY, Pennsylvania        MIKE ROGERS, Alabama
JIM MARSHALL, Georgia                JOHN M. McHUGH, New York
MADELEINE Z. BORDALLO, Guam          HOWARD P. ``BUCK'' McKEON, 
MARK UDALL, Colorado                     California
DAN BOREN, Oklahoma                  ROBIN HAYES, North Carolina
NANCY BOYDA, Kansas                  FRANK A. LoBIONDO, New Jersey
CAROL SHEA-PORTER, New Hampshire     TOM COLE, Oklahoma
JOE COURTNEY, Connecticut            ROB BISHOP, Utah
DAVID LOEBSACK, Iowa                 CANDICE S. MILLER, Michigan
GABRIELLE GIFFORDS, Arizona          TRENT FRANKS, Arizona
KATHY CASTOR, Florida                CATHY McMORRIS RODGERS, Washington
               Vicki Plunkett, Professional Staff Member
                Cathy Garman, Professional Staff Member
                Lynn Williams, Professional Staff Member
                    Sarah Schaffer, Staff Assistant






























                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Tuesday, July 31, 2007, The Use of In Lieu Of, Ad Hoc and 
  Augmentee Forces in Operations Enduring Freedom and Iraqi 
  Freedom........................................................     1

Appendix:

Tuesday, July 31, 2007...........................................    29
                              ----------                              

                         TUESDAY, JULY 31, 2007
   THE USE OF IN LIEU OF, AD HOC AND AUGMENTEE FORCES IN OPERATIONS 
                   ENDURING FREEDOM AND IRAQI FREEDOM
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

LoBiondo, Hon. Frank A., a Representative from New Jersey, 
  Readiness Subcommittee.........................................     2
Ortiz, Hon. Solomon P., a Representative from Texas, Chairman, 
  Readiness Subcommittee.........................................     1

                               WITNESSES

Egginton, Brig. Gen. Jack B., Deputy Director of Operations, U.S. 
  Central Command, U.S. Air Force................................     4
Giardina, Rear Adm. Timothy M., Chief of Naval Operations, 
  Director, Information, Plans, and Security Division............     6
Gibson, Brig. Gen. Marke F., Director of Current Operations and 
  Training, Deputy Chief of Staff for Operations, Plans, and 
  Requirements, U.S. Air Force...................................     6
Halverson, Brig. Gen. David D., Director of Operations, Readiness 
  and Mobilization, Deputy Chief of Staff, G-3/5/7, U.S. Army....     5
Kamiya, Maj. Gen. Jason K., Director, Joint Training and Joint 
  Warfighting Center, U.S. Army..................................     5

                                APPENDIX

Prepared Statements:

    Egginton, Brig. Gen. Jack B..................................    33
    Giardina, Rear Adm. Timothy M................................    52
    Gibson, Brig. Gen. Marke F...................................    59
    Halverson, Brig. Gen. David D................................    45
    Kamiya, Maj. Gen. Jason K....................................    37

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Mr. Ortiz....................................................    71
    Mr. Taylor...................................................    88
   THE USE OF IN LIEU OF, AD HOC AND AUGMENTEE FORCES IN OPERATIONS 
                   ENDURING FREEDOM AND IRAQI FREEDOM

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                    Readiness Subcommittee,
                            Washington, DC, Tuesday, July 31, 2007.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
room 2118, Rayburn House Office Building, Hon. Solomon P. Ortiz 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. SOLOMON P. ORTIZ, A REPRESENTATIVE 
          FROM TEXAS, CHAIRMAN, READINESS SUBCOMMITTEE

    Mr. Ortiz. This hearing will come to order.
    I know we are few, but we have got the most important 
members this morning here. [Laughter.]
    I thank your distinguished witnesses for appearing before 
the subcommittee today to talk about the employment of airmen 
and sailors in combat and combat support roles outside their 
services' traditional core missions. We also will be looking at 
whether sailors and airmen are adequately trained and equipped 
for these predominantly Army missions in both theaters of 
operations.
    Today, we will examine the impact on readiness of using 
airmen and sailors in place, as individual augmentees to, or as 
ad hoc replacements for soldiers and Marines. Ongoing 
operations in Iraq and Afghanistan have created continuing high 
demand for certain combat support and combat service support 
skills. Needed skills include civil affairs for post-
reconstruction teams, intelligence and counter intelligence, 
medical, communications, logistics, construction, engineering, 
and security forces.
    Facing shortages of available personnel in some skills, the 
Department of Defense (DOD) has used strategies such as 
reassigning and retraining service personnel to meet the combat 
commanders' requirements, especially in Central Command's areas 
of responsibility. The role of the services in augmenting 
emergency forces has expanded as the conflicts in Iraq and 
Afghanistan continue. Joint Forces Command has stated a fiscal 
year 2008 requirement of 17,376 service in lieu of (ILO) 
commitments.
    In addition to support from the other services, the Army is 
providing its own soldiers to fill shortage requirements 
through the use of individual augmentation and changing the 
mission of units. Currently, the Army estimates that there are 
2,000 individual augmentee soldiers in Central Command's area 
of responsibility. Fifty percent of these soldiers are mid-
grade officers, captain through lieutenant colonel.
    The subcommittee will be interested in hearing about the 
net effect on readiness of pulling so many mid-career officers 
out of their units to support the war. The Navy began providing 
sailors to augment Army forces in the summer of 2005 at the 
direction of the Chief of Naval Operations (CNO). To date, more 
than 46,000 sailors have been transferred from their normal 
jobs to support joint service requirements.
    In fiscal year 2004, the Air Force ILO level was 1,905. 
This has grown to more than 5,300 airmen now serving in ILO 
positions. Furthermore, the Air Force estimates that 19,963 
airmen are needed to sustain a 2:1 dwell ratio if current 
manning requirements continue.
    Because our research on this issue has shown differences in 
how the services approach ILO training, equipping and tracking, 
the subcommittee is concerned that service members are 
receiving training that is to task or limited by time versus 
training to combat proficiency.
    Among the questions we hope to answer today are: Who is 
responsible for establishing baseline training standards? What 
checks are in place to ensure that sailors and airmen are 
adequately trained for the mission they will perform when 
deployed? What is the feedback loop upon deployment to 
determine if the sailors and airmen were fully trained for the 
mission they were sent to perform?
    Government Accountability Office (GAO) has pointed out that 
there are issues with equipment, where ILO sailors and airmen 
trained on equipment that was inconsistent with the equipment 
being used by existing ground forces. The subcommittee will 
need to know: How are ILOs equipped? Is the equipment identical 
to what ground forces in-theater have, and if not, why not? 
What methods are the services using to ensure that deploying 
ILO units will have the equipment they need for pre-deployment 
training and in-theater missions?
    The subcommittee also is concerned about the strain on 
readiness and the increased risk to national security created 
by taking soldiers, sailors, and airmen out of their core 
service roles. Service members could potentially miss training 
and other opportunities to enhance their careers in their 
parent services. Recruiting and retention could be hindered 
because potential recruits or experienced personnel may not 
want to retrain for missions and skills other than those they 
originally planned to perform.
    The chair now recognizes the distinguished friend from the 
great state of New Jersey, Mr. LoBiondo.

STATEMENT OF HON. FRANK A. LOBIONDO, A REPRESENTATIVE FROM NEW 
                 JERSEY, READINESS SUBCOMMITTEE

    Mr. LoBiondo. Thank you, Chairman Ortiz. I appreciate very 
much your holding this hearing today.
    Congressman McKeon asked me to apologize to you. He had a 
floor schedule on the House floor and asked me to sit in in his 
place. With your indulgence, Mr. Chairman, Mr. McKeon had an 
opening statement that I would like to make on his behalf.
    He starts off by thanking you, Mr. Chairman, for holding 
this timely and important hearing on joint force sourcing 
solutions. This is a very complex subject. And it is one that I 
believe the subcommittees must understand in order to 
adequately assess and support the readiness of our forces.
    In spite of the tremendous combat capability that our 
military can bring to bear, the war we are fighting today has 
placed unique demands on the Department of Defense. Combatant 
commanders have had to augment their traditional toolkits of 
the infantry, the artillery, and the blue-water Navy. They now 
have requirements for forensic teams to do post-recovery 
inspections of improvised explosive devices (IEDs), security 
forces with skills in detainee or convoy operations, and civil 
affairs experts to support provincial reconstruction teams.
    While these duties are aligned with the military missions 
in the Central Command area of responsibility, they were not 
readily available to the force we ended the Cold War with. In 
order to meet these mission requirements, the Department of 
Defense has developed an in lieu of sourcing solution. It is my 
understanding that the department estimates that over 17,000 
personnel will be part of the in lieu of sourcing solutions for 
fiscal year 2008.
    Although the services claim that over 90 percent of those 
personnel will be fulfilling missions related to their core 
competencies, all of these personnel will be tasked to perform 
their mission outside the operating environment their 
fundamental training was centered on.
    Today, our military men and women face a complex battle 
space. The remissioning, retraining, and joint sourcing of in 
lieu of forces greatly adds to that complexity. While this 
sourcing solution may not be optimum, it is necessary to meet 
the emerging requirements of the war on terror.
    In my view, the role of this subcommittee is to ensure that 
the personnel asked to fill these in lieu of missions and 
emerging assignments are properly trained and fully equipped to 
accomplish their missions.
    I look forward to hearing from the witnesses today and am 
particularly interested in learning more about the in lieu of 
sourcing progress, the training protocols, and the 
Administration and support of personnel once they arrive in the 
theater of operations.
    It is extremely important that these augmentees are 
properly prepared for the mission they are assigned to 
undertake, and it is equally important that the gaining 
commanders are well aware of the capabilities and limitations 
of the augmentees assigned to their command.
    Thank you, Mr. Chairman, again for holding this hearing. I 
look forward to hearing the testimony.
    Mr. Ortiz. Thank you for your statement.
    Today, we have a panel of distinguished witnesses 
representing the Central Command, Joint Forces Command, and the 
services will address the use, training and equipping of in 
lieu of service personnel.
    Our witnesses are Brigadier General Jack B. Egginton, U.S. 
Air Force, Deputy Director of Operations for the United States 
Central Command; Major General Jason K. Kamiya, U.S. Army, 
Director of Joint Training for United States Joint Forces 
Command; Brigadier General David D. Halverson, Director of 
Operations, Readiness and Mobilization, Office of the Deputy 
Chief of Staff, G-3/5/7, Headquarters, U.S. Army; Rear Admiral 
Timothy Giardina, Director of Information, Plans and Security 
for the Chief of Naval Operations; and Brigadier General Marke 
F. Gibson, Director of Current Operations and Training and 
Deputy Chief of Staff for Operations, Plans and Requirements, 
Headquarters, U.S. Air Force.
    Without objection, the witnesses' full testimonies will be 
accepted for the record.
    General Egginton, if you can begin with your testimony, and 
then be followed by General Kamiya, General Halverson, Admiral 
Giardina, and General Gibson in that order.
    So you can begin, General, whenever you are ready.

 STATEMENT OF BRIG. GEN. JACK B. EGGINTON, DEPUTY DIRECTOR OF 
        OPERATIONS, U.S. CENTRAL COMMAND, U.S. AIR FORCE

    General Egginton. Thank you very much. Good morning, 
Chairman Ortiz, honorable members of the subcommittee. Thanks 
for the opportunity to meet with you today to talk about the in 
lieu of forces that are supporting the Central Command 
(CENTCOM) so honorably. It is a pleasure to be with you today, 
and I thank you for this opportunity.
    It is my understanding that you want to hear how these 
forces are performing in Iraq, Afghanistan, and the Horn of 
Africa. We will discuss that as we go.
    Overall, CENTCOM is extremely satisfied with the 
performance of the in lieu of forces that are supporting the 
combatant commanders on the ground in those three areas of 
responsibility (AORs). Not only do these units greatly assist 
in force flow gap mitigation, but in lieu of forces have 
demonstrated an exceptional level of expertise and 
professionalism while performing these capabilities that are 
often in short supply in the United States Army.
    Additionally, in lieu of U.S. Army Reserve and National 
Guard personnel bring additional knowledge and skill sets to 
the fight based on their augmented experiences from their 
civilian careers, which is greatly appreciated.
    The bottom line requirement for CENTCOM in dealing and 
working with the in lieu of trained folks is that they be 
manned, equipped, trained, and certified prior to deployment 
and to perform their duties when they come to the AOR. I am 
happy to report that, by and large, we are very satisfied and 
those forces are performing honorably when they come and 
support us in CENTCOM.
    Sir, I thank you for this opportunity to speak to you and 
the subcommittee and I look forward to answering any questions 
you may have as we proceed.
    Thank you.
    [The prepared statement of General Egginton can be found in 
the Appendix on page 33.]
    Mr. Ortiz. General.

    STATEMENT OF MAJ. GEN. JASON K. KAMIYA, DIRECTOR, JOINT 
        TRAINING AND JOINT WARFIGHTING CENTER, U.S. ARMY

    General Kamiya. Mr. Chairman and members of the 
subcommittee, on behalf of General Lance Smith, the commander 
of the U.S. Joint Forces Command (JFCOM), I want to thank you 
for allowing me to appear before you today.
    The readiness of the men and women of our nation's armed 
forces is our number one priority. This is a task that cannot 
be overstated, and we appreciate the hard work of this 
subcommittee and the U.S. Congress in this regard.
    Personally, I believe that I am extremely fortunate to 
serve as JFCOM's director of joint training, where I can apply 
the hard lessons learned during my recent service as the 
commander of an 18,000-service member U.S. and coalition joint 
task force in Afghanistan from March 2005 to February 2006.
    Force preparation and readiness we believe is intrinsically 
linked to unit notification and stabilization. The combined 
work of the Office of Secretary of Defense, the Office of the 
Joint Chiefs of Staff, JFCOM, our combatant commands, our 
components, and the services to the global force management 
process is expected to bring an increased level of 
predictability, which should enhance training.
    Our vision is holistic, a holistic approach that links 
force generation, force management, and training. JFCOM is 
committed to providing an agile, comprehensive training 
environment that prepares our leaders, our units, and 
individuals for the tough missions they have ahead. Your 
support in Congress is essential to getting this right.
    Thank you, Mr. Chairman, and thank you for approving my 
witness statement for inclusion in the record. I stand by for 
your questions.
    [The prepared statement of General Kamiya can be found in 
the Appendix on page 37.]
    Mr. Ortiz. Thank you, sir.

    STATEMENT OF BRIG. GEN. DAVID D. HALVERSON, DIRECTOR OF 
OPERATIONS, READINESS AND MOBILIZATION, DEPUTY CHIEF OF STAFF, 
                       G-3/5/7, U.S. ARMY

    General Halverson. Mr. Chairman, distinguished members of 
the committee, thank you for my opportunity to appear before 
you today and discuss how the Army supports in lieu of sourcing 
and provides individual augmentation in support of the 
combatant commanders' requirements.
    On behalf of the secretary of the Army, Mr. Pete Geren, and 
Chief of Staff of the Army General George Casey and the 
approximately 1 million active, Guard and Reservists that 
comprise the Army, more than 145,000 of whom are serving in 
Operations Enduring Freedom and Iraqi Freedom, I welcome the 
opportunity to discuss this important topic. The Army remains 
committed to providing the combatant commander with the best-
trained, the best-equipped, and the best-led force in the 
world.
    Mr. Chairman and distinguished members, thank you for your 
service to this committee and the considerable support you 
provide the United States Army. I do look forward to answering 
your questions during our time today.
    Thank you.
    [The prepared statement of General Halverson can be found 
in the Appendix on page 45.]

  STATEMENT OF REAR ADM. TIMOTHY M. GIARDINA, CHIEF OF NAVAL 
OPERATIONS, DIRECTOR, INFORMATION, PLANS, AND SECURITY DIVISION

    Admiral Giardina. Good morning, Chairman Ortiz, 
distinguished members of the subcommittee. Thank you for the 
opportunity to appear before you today to discuss the training, 
equipping, and employment of our sailors in combat support 
roles.
    As we continue to support this effort, we are maintaining 
our core mission areas and level of readiness to meet our 
global security requirements. While many of these missions do 
not fall within our core mission areas, we continue to provide 
a wide variety of sourcing solutions where shortfalls exist in 
the joint force.
    Utilizing our sailors' core skills and additional training 
provided by the Army trainers, our sailors are performing very 
well. By leveraging the Army's existing expertise in training 
of personnel for combat support and combat service support 
missions, Navy is provided trained personnel as part of the 
total force solution.
    We will continue to provide augmentees, principally to 
relieve stress on those ground forces where it makes sense, and 
to provide forces where emerging missions do not cleanly fall 
into any service-specific core mission areas.
    To be clear, we are not creating combat soldiers. We are 
providing personnel to combat support and combat service 
support missions, and these sailors are making significant 
contributions. As testified by the vice chief of naval 
operations recently, Navy's current readiness posture remains 
excellent.
    Congressional support has been outstanding and critical to 
this success, and in this regard has resulted in Navy units and 
individual augmentees to deploy combat ready, properly trained, 
and properly equipped. Navy stands ready to respond to the full 
spectrum of assigned missions.
    I appreciate your support, and I stand ready to answer your 
questions.
    [The prepared statement of Admiral Giardina can be found in 
the Appendix on page 52.]
    Mr. Ortiz. Thank you.
    General Gibson.

 STATEMENT OF BRIG. GEN. MARKE F. GIBSON, DIRECTOR OF CURRENT 
OPERATIONS AND TRAINING, DEPUTY CHIEF OF STAFF FOR OPERATIONS, 
            PLANS, AND REQUIREMENTS, U.S. AIR FORCE

    General Gibson. Mr. Chairman, distinguished members of the 
subcommittee, my name is Brigadier General Marke Gibson. I am 
currently the director of Air Force current ops and training. 
With regards to today's topic, I served in Iraq from 2003 to 
2004 as the first Air Force commander of ILO forces.
    Thank you for the opportunity today to appear before you to 
discuss Air Force in lieu of taskings and other programs that 
are important to your Air Force and to our nation. I proudly 
report that your Air Force remains fully engaged around the 
world, fighting terrorism and insurgents in the global war on 
terror, while fulfilling our roles as airmen in the joint team.
    Simultaneously, we stand prepared for rapid deployment to 
respond to any global crisis as part of our nation's strategic 
reserve. We fly, fight and dominate in three warfighting 
domains: air, space, and cyberspace, giving the United States 
sovereign options to employ military force like no other nation 
in the world.
    Of the 25,453 airmen deployed to CENTCOM AOR, 6,293 are 
considered to be filling ILO tasks, mostly, in lieu of Army 
specialists. Since 2004, we have deployed approximately 22,000 
airmen to perform ILO tasks.
    Also, ILO tasks to the Air Force have been increasing 33 
percent annually through this year 2007, in which the increase 
was 57 percent. The U.S. Air Force also fills another 1,880 
joint manned positions with Air Reserve component individual 
augmentees, which has increased approximately 10 percent per 
year since 2003.
    These ILO tasks draw from across the board of Air Force 
specialty codes to include civil affairs, public affairs, judge 
advocate, chaplain, intelligence, counterintelligence, medical, 
communications, logistics, engineering, security forces, and 
operations. Currently, 87 percent of our ILO task airmen work 
joint-sourcing solutions in line with their core competencies. 
The remaining 13 percent are part of the retraining ad hoc 
teams who are serving outside their core competency.
    Your Air Force takes great pride in serving and defending 
our great nation. We take every measure to ensure that our 
airmen are organized, trained, and equipped to perform the 
CENTCOM requirements and mission with competence.
    However, there is a growing cost to ILO tasks to our Air 
Force, especially when they fall outside our airmen's core 
competencies--costs in both manpower to effect the training and 
costs to the Air Force core competencies. These costs impact 
overall readiness and our ability to respond to unforeseen 
circumstances such as providing humanitarian assistance or 
supporting other operational surges.
    This concludes my remarks. I have provided a more extensive 
statement and ask that it be included in the record. I will be 
happy to answer your questions.
    [The prepared statement of General Gibson can be found in 
the Appendix on page 59.]
    Mr. Ortiz. Thank you so much.
    I see this hearing this morning as one of the most 
important hearings that I have had, at least since becoming 
chairman of this committee. This is important for many reasons. 
I know that if the war goes on, strategies have been changed, 
actors have been changed.
    General Gibson and Admiral Giardina, are the airmen and 
sailors who have been killed in Iraq, are you confident that 
they all received the necessary training? And that the training 
they received was adequate to prepare them for the missions to 
which they were assigned?
    General Gibson. Sir, I will take your question first.
    Yes, sir. As you alluded, this is an evolving fight, and 
has been. The enemy's tactics and techniques have evolved and 
continue to change, and therefore ours need to, as well, both 
in our tactics and in our equipment.
    But to date, I am pleased to report to you that I think as 
our airmen go out in support in these in lieu of taskings, that 
they are receiving the best training and equipment that our 
nation has to offer.
    Mr. Ortiz. Admiral.
    Admiral Giardina. Mr. Chairman, the limited number of 
casualties the Navy has had in response to these missions, we 
believe that the training was adequate. These forces received 
all scheduled training and it was conducted to standard.
    Mr. Ortiz. You know, how do we know, and let me begin with 
this question now. How long--because, do you change the 
Military Occupational Specialty (MOS) or they keep the same 
MOS? What if they go from one job to another one? Do they 
change MOS's or they keep the same MOS that they had prior to 
being an augmentee?
    General Gibson. Sir, in the case of the Air Force, they 
don't change AFSCs or Air Force specialty codes, MOS if you 
will, because they are filling an in lieu of tasking.
    Admiral Giardina. Sir, for the Navy, it kind of depends on 
what they are doing. If they are doing something that is 
directly in line with their core competency, for instance an 
Individual Augmentee (IA) on a staff fulfilling a mission that 
they would normally do, there is no change in MOS or officer 
designator or NEC, Navy enlisted classification.
    For some of the specialized training that is done to track 
that, the personnel command has added tracking systems to 
actually change the MOS, but it is more of an additional 
qualification designation as opposed to a change in their 
permanent core competency.
    Mr. Ortiz. Now when I was in the military, that was a long 
time ago. It took us at least 16 weeks to get our MOS. How long 
are you training those augmentees before they go to their 
place, after you augment somebody? What is the training, and 
where do they get their training?
    General Gibson. Sir, in the case of the Air Force, of 
course they have received their basic Air Force functional and 
underlying training. They receive, as a minimum, 19 hours of 
local training as refreshers in all those kinds of courses, 
everything from medical support combat buddy care and those 
types of things.
    They then cut over to, in this case, most of our in lieu of 
taskings in support of the Army, to one of their nine training 
locations in which they receive an additional, I think the vast 
majority of the syllabus are five weeks of additional 
specialized training unique to that mission and task that they 
are going to be asked to fulfill.
    Mr. Ortiz. I am sorry, the training is being conducted 
where?
    General Gibson. Right now, across nine locations within the 
Army, sir.
    Mr. Ortiz. In the United States?
    General Gibson. Yes, sir. There is some additional training 
that is offered as required and, as permitted, within the AOR 
in the sense of refresher and top-off training.
    Mr. Ortiz. Admiral.
    Admiral Giardina. Yes, sir. From a Navy perspective, it 
kind of depends on exactly what they are doing, but at the very 
minimum the training that all of the Navy folks get is about a 
two-week course. All of our training, the Navy does through 
agreement with the Army and is being either conducted under the 
purview of the Army's Training and Doctrine Command, TRADOC, or 
Army Forces Command.
    Navy individual augmentee training course, NIACT, is 
conducted at Fort Jackson, South Carolina. It is Army trainers 
who actually conduct that training. The training is as 
specified by the combatant commander, in this case CENTCOM, and 
provides those requirements. The Navy validates that training, 
and we have personnel on-site at NIACT to ensure that that 
training is conducted.
    Once they have completed that course of instruction, if 
that is all that they are going to need because they are 
working within a skill-set that they don't need additional 
training, then they go in-country. And then the combatant 
commander has additional training that is conducted in the 
CENTCOM AOR to their specification.
    Now, for Navy missions where it is an ad hoc training and 
it is a different mission set, what is essentially done is we 
take commensurate training that the Army would provide to Army 
forces that are conducting similar missions. And again through 
not just Fort Jackson, South Carolina, but a number of Army 
bases, again either under the Training and Doctrine Command or 
Forces Command. They conduct that training with our liaison 
there, and the training conducted is exactly the same training 
that they would conduct for soldiers going to do similar 
missions. Then, they would also have the follow-on training in-
country.
    Mr. Ortiz. I have some more questions, but let me yield to 
my good friend from New Jersey for any questions that he might 
have.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    Some of this overlaps with what the chairman was just 
asking about, but it seems to me that the training has to 
accommodate varying degrees of skill or level of experience and 
how that gets integrated into what is expected.
    What checks are in place to ensure that the sailors and 
airmen are adequately trained for the mission that they are 
going to be deployed for? Is there some standard or some 
checklist that somehow is out there? This is for anyone.
    General Gibson. Sir, I will step up initially on that one.
    From the Air Force perspective, through our chief, we have 
established through our training command down to Second Air 
Force at Keesler Air Force Base a team that is dedicated to 
ensuring that the training is adequate, meeting Combatant 
Command (COCOM) requirements, and is standardized.
    When those airmen travel to one of those nine locations to 
train with the Army, we have detachments forward that work in 
conjunction with the Army trainers on the syllabus and course 
of training and to ensure that those airmen are meeting the 
same standards any other soldier or sailor would need to meet 
to go forward and do that mission and task. And then it is 
constantly in a feedback loop, if you will.
    We evaluate their sense at court completion, at between 45 
and 60 days when they have been deployed, and then upon 
completion of their tour--again, continually having that 
dialogue with the COCOM also to make sure that those forces are 
meeting their needs.
    Mr. LoBiondo. You covered what my second question was going 
to be on the feedback loop, so that is something that is 
constant in the beginning and throughout.
    Who tracks whether the individual augmentees, not those 
with a remissioned unit, are completing each of their training 
requirements before they arrive in-theater? How does that work?
    Anyone?
    General Kamiya. Sir, the current process is that the 
providing service certifies that individual's basic combat 
skill competencies. The gaining service, in the case of the Air 
Force and Navy, when they go to an Army training base, for 
example, for additional training, the Army in that case would 
certify to the parent service that that functional competency 
has been trained to standard.
    It remains up to the parent service to certify that 
individual, or in some cases units, are certified read for 
combat in accordance with the combatant commander requirements. 
Hopefully, that clarifies this. So it was always the parent 
service that certifies that the individual and units have met 
all training requirements for deployment to the CENTCOM area of 
operations.
    Mr. LoBiondo. GAO has pointed out that there appear to be 
some issues with equipment where in lieu of and individual 
augmentees of sailors and airmen trained on equipment that was 
inconsistent with equipment being used by existing ground 
forces.
    Is that accurate from your point of view?
    Anyone?
    Admiral Giardina. From a Navy perspective, the equipping of 
our sailors is done by the Army and it is done to the same 
standard for Army forces fulfilling similar roles and missions. 
So to my knowledge, all of the equipping has been to that 
standard.
    Mr. LoBiondo. So the equipment that sailors and airmen are 
training on is the same equipment that they are going to find 
in-theater? Is that all of your understandings?
    General Egginton. By and large, that is true. As they come 
into theater, they may have modified or improved systems that 
have not been distributed throughout the training process, but 
when they come in they will get top-off training.
    In Kuwait, for example, IED and counter-IED devices and 
that sort of thing that are the latest developments with the 
latest software upgrades and that sort of thing, so they get 
hands-on training, real time prior to going forward.
    Mr. LoBiondo. And last couple of questions, Mr. Chairman.
    I am curious about how you would categorize the morale by 
those that are affected by the in lieu of. How do you find 
this?
    I know that I have a dad of one of the soldiers that has 
some question marks about how the soldier feels.
    Can you comment from your experience on the morale aspect 
of this?
    General Egginton. Sir, from my perspective, speaking to 
airmen and sailors and the folks that are doing things they 
don't normally do in their core competencies that, by and 
large, they are excited about the opportunity to serve in some 
capacity in direct support to the combat operation.
    Some folks in the transportation business, for example, 
back home are normally either driving a truck in the local area 
or working logistics issues in the office. They receive this 
training, for example, Camp Bullis for the Air Force elements 
that come over, on the securing convoy support role. They come 
over there and they are excited about the opportunity.
    I had previous commands, and many folks would come back 
from their deployment beaming about their opportunity to serve 
in that capacity. Commanding convoys through the combat zone, a 
lieutenant logistics officer that normally would never think 
when she came into the military as a second lieutenant she 
would ever have the opportunity to serve in that kind of 
capacity, and comes back with a bronze star for heroism for the 
efforts that she did. The training she received at Camp Bullis 
prepared her to do that.
    We grow and we evolve and we learn new skills in the 
process of doing this, and it has been a morale builder for the 
most part with anybody I have ever talked to.
    General Halverson. Sir, if I could just articulate a little 
bit. That is a good question because I think leadership has to 
stay engaged to ensure they know the task purpose and why they 
are doing it. Many times, you have artillery units that are now 
doing security force missions that have had to do those things.
    Obviously, in high-spectrum type of things, they would want 
to be shooting their howitzers or doing those aspects because 
that is what they came in and that is what they picked from 
their source and their commission or whatever.
    So if they do that, you have to balance that out to ensure 
that this is either a one-time in lieu of-type thing. Then he 
can get you back into that training that you are set for. But 
obviously, you have to make sure. And us in the Army, 
especially as we are in not only the counterinsurgency fight 
that we are in today, but if we have to be prepared for another 
scenario, you have to invest in it. And that is that 
degradation of readiness at times that we just have to be 
cognizant of in this consistent conflict that is going on.
    So good leadership in telling the task purpose and 
articulating that to our junior leaders are very, very 
important because they may have concerns because they are not 
doing their artillery missions. But getting them in there and 
working on those core competencies tasks are very important for 
us. We keep a good pulse on that, but it is a great concern of 
us to make sure that we stay focused on all those tasks.
    Mr. LoBiondo. Admiral.
    Admiral Giardina. From a Navy standpoint, I think the vast 
majority of our sailors feel that they are contributing to 
important missions in a wide variety of mission areas. They 
look at it as an opportunity to contribute. I think when you 
look at our accession numbers, readiness numbers, attrition 
throughout the pipeline in the entire chain, they remain 
positive.
    The chief of naval operations, the vice chief, and other 
senior leaders when they have testified have consistently 
stated the good morale that the Navy sailors have had. My 
personal observation has been the same, including individual 
augmentees from my staff that have gone, and I maintain a 
relationship with them, and it is very positive.
    So, yes, sir, I think it is very positive morale at this 
point.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    Mr. Ortiz. The gentleman from Mississippi, Mr. Taylor.
    Mr. Taylor. I want to thank each of you gentleman for being 
here and for your service to our nation. I have to admit my 
disappointment in your opening statements. I really felt like 
you told us almost nothing.
    One of the things that I have hopefully learned from your 
counterparts over the years is the importance of training as a 
unit, teamwork, getting very good at something.
    What I fear is happening in the case of these augmentees is 
you are losing all of that. I remember reading Stephen 
Ambrose's ``Citizen Soldiers'' where he talks about the 
appalling rates of casualties among the replacements that, 
unlike the original teams that went in and trained for years 
together, the augmentees did not have a sense of connection 
with the rest of the unit. Guys didn't tend to look out for 
them as much. They didn't really know what they were doing, and 
they suffered a disproportionately high percentage of 
casualties.
    So my question is, has anyone tracked the casualties among 
the IAs to see if they are suffering a disproportionately high 
percentage of casualties?
    General, to your point, I have been to Camp Shelby several 
times. I was there about a year ago April, and I remember a 
young guardsman who was getting ready to leave for Afghanistan 
the following Monday--this is a Friday. I asked him if he had 
trained on a jammer. What is your job? ``I am a Humvee 
driver.'' Have you trained on a jammer? His answer was, ``What 
is that?''
    Now, this is a guy who has trained for months at Camp 
Shelby before he is going to Afghanistan, so if that guy hasn't 
trained on a jammer prior to deploying, what kind of a chance 
does an IA have who might have been a boatswain mate one day 
and is driving a truck the next day, or a sonar technician? Who 
is tracking this?
    I will open that up. Let's start by service, is anyone 
tracking the casualties of your IAs to see if they are 
suffering a disproportionately high percentage of casualties?
    General Gibson. Sir, I will open for the Air Force. To 
date, our best numbers are that we have had approximately 152 
of our ILO-related airmen suffer casualties, various forms of 
those; 13 have been killed since February 2004 when we began. 
Frankly, I can't comment today on whether that is 
disproportionate to our other folks that are forward or not.
    Mr. Taylor. Okay, General Gibson, for the record, I would 
like that figure.
    General Gibson. Yes, sir. I will take that for the record.
    Mr. Taylor. Of the total airmen in-theater, total IAs in-
theater, total casualties with the total force, total 
casualties for the IAs.
    General Gibson. Yes, sir.
    [The information referred to can be found in the Appendix 
beginning on page 88.]
    Mr. Taylor. Admiral.
    And for the record, I would like that for each of the 
services that are represented today. If you have that number 
off the top of your head, I would like to hear it now.
    Admiral.
    Admiral Giardina. Yes, Mr. Taylor. I will provide for the 
record the actual numbers with a breakdown for the entire 
theater.
    At this point, in lieu of forces the Navy has had three 
casualties. Two of those casualties were as a result of IEDs 
from convoy operations, and one was in a combat fire situation 
where a service member suffered smoke inhalation. Those are the 
only three IA casualties that we have had to date.
    I will provide that for the record.
    [The information referred to can be found in the Appendix 
beginning on page 88.]
    Mr. Taylor. Thank you, sir.
    General.
    General Halverson. Sir, I don't have the specific number 
that you want. You know, we have had about 36 and 147 
casualties in Operation Enduring Freedom (OEF) and Operation 
Iraqi Freedom (OIF) since the start of the war. The majority of 
those are not individual augmentees because the majority of 
those are on staffs or filling other things.
    There have been some incidents where indirect fire and 
those types of actions have actually hurt some of our 
individual augmentees. But we do track it very carefully at the 
combat readiness centers at Fort Benning and Fort Bliss, and 
they go through and track exactly what they do.
    We have a very maturing approach where they do have much 
more detailed IED situational awareness, combat life saver 
awareness if they are hurt, and then also their awareness on 
indirect fires and all those react-to-contact and stuff--
because obviously IEDs have been the majority killer for us in-
theater.
    So we have a very thorough approach. One, they do it prior, 
and then a good course where they have to go through deliberate 
aspects with those individual augmentees.
    Then we certify that they have received the training, and 
then they will not fly over until we know that they have gone 
through the course and passed each of their records of the 
courses or gone through the individual training, weapons 
qualifications, and all those types of things. And then they 
will fly over. But I will get you the specific number, because 
we do have that data. I just don't have it with me today.
    [The information referred to can be found in the Appendix 
beginning on page 88.]
    Mr. Taylor. General.
    General Kamiya. Sir, it is USJFCOM's responsibility, in 
concert with CENTCOM, to continually look at the conditions 
under which the tasks that CENTCOM has defined as theater-
specific individual readiness training tasks, are relevant to 
the operational environment. I explained this to others akin 
to, it is one thing to learn how to drive, but as you adjust 
the conditions, it is another thing to drive in inclement 
weather or in heavy density traffic.
    So it is this aspect of training that I think that JFCOM 
has a big set of responsibilities, again working with CENTCOM, 
to ensure that the task prescribed by the combatant commander, 
as those tasks are mandatory for any service member, regardless 
of functional specialty, no matter where they are going to be 
working in the CENTCOM AOR, to make sure that those tasks are 
relevant.
    But more importantly, to make sure the conditions under 
which those tasks are to be executed is accurately described to 
the services, so that they can look at and assess if the task 
and the way they train under the Title X responsibilities are 
in fact meeting CENTCOM's requirements. If not, to conduct the 
assessment to see where gaps may exist and apply resources 
accordingly. So this is where I believe the Joint Force Command 
has a huge responsibility.
    In partnership with the services, we do a lot of 
circulation among all the AORs to talk to service members or 
talk to unit commanders, et cetera. We provide their 
assessments, their boots-on-the-ground assessments to the 
services and to CENTCOM and use this information to make sure 
that our training programs, joint training programs, as well as 
the service programs that we help enable, remain relevant to 
the force.
    So there is a lot of ongoing work, sir, with ensuring that 
the training continually evolves in task, in conditions, and in 
standards to make sure that the way these individuals train 
back here in CONUS prior to deployment is in fact the most up-
to-date as possible.
    Mr. Taylor. Thank you, Mr. Chairman.
    Again, what is a reasonable amount of time to expect those 
numbers from you? Is a working week a reasonable amount of 
time?
    General Halverson. Yes, sir. We have that data. We just 
need to pull it----
    [The information referred to can be found in the Appendix 
beginning on page 88.]
    Mr. Taylor. Thank you again. Thank you, gentlemen, for 
being here.
    Thank you, Mr. Chairman.
    Mr. Ortiz. Ms. Boyda.
    Mrs. Boyda. Yes, thank you, Mr. Chairman.
    And thank you again, all of you, for your service.
    My question is just generally, were we to leave everything 
the way that it is working right now, a year from now, are you 
going to be pretty satisfied with where we will be a year from 
now with regard to the ILOs and individual augmentation?
    So were we to make no changes with regard to any of these 
policies, how would it affect, or what do you think you will be 
saying a year from now?
    General Gibson. I will respond initially for the Air Force, 
ma'am. I think I can speak on behalf of our chief and secretary 
that we are proud to be part of this joint fight. But over 
time, we would like to continue to get back into those 
functions that are matched with our core competencies within 
the Air Force, and make that contribution and continually try 
to resolve, as the ground component grows, to get out of those 
duties and tasks that are not within our core competencies.
    Mrs. Boyda. Just for the record, let me be a little clearer 
on this. So were that not to happen, is it just that it 
wouldn't be--what do you think would actually--where do you 
think you would be, the Air Force would be a year from now? 
What would the consequences of no change in policy mean to you 
specifically?
    General Gibson. Ma'am, I am not sure I am prepared to 
speculate. We have a plan now over the next 12 months I think 
that will continue to pull us out of those non-core competency 
contributions to the joint fight and the COCOM requirements. So 
we are already on that ramp to do that. But clearly, we stand 
ready to contribute.
    Mrs. Boyda. I appreciate that. So you are saying the ILOs 
are ready to start ramping down and everybody has agreed on a 
plan that that will somewhat start to ramp the other direction 
instead of ramping forward? Is that what I am hearing?
    General Gibson. Yes, ma'am. We have been doing that for 
some time now.
    Mrs. Boyda. Excellent.
    Admiral Giardina. Ma'am, from the Navy perspective, the 
chief of naval operations has offered his continued support as 
long as the conflict goes to where Navy can help out in the 
ground-centric areas that we are currently helping. Right now, 
as a percentage of the total force, the in lieu of and 
augmentation-type missions are between two percent and three 
percent of our forces, a fairly small contribution when taking 
the whole force into account.
    So from a standpoint of service readiness, the Navy will 
continue to stay ready with the funding support that we need to 
meet all of our obligations. I fully expect that the chief of 
naval operations will continue to support these missions.
    Mrs. Boyda. So, again, let me just see if I understand what 
you are saying. A year from now, were it to continue this way, 
it might not be the best of scenarios, but you don't think that 
we need to make any adjustments? Or that, basically, that 
certainly war is a time when people make their adjustments and 
their sacrifices.
    Do you think that we need to make any policy adjustment 
between now and then that would in fact make the situation any 
better?
    Admiral Giardina. From a standpoint of what we are here to 
discuss today from augmentation to the ground-centric missions, 
we will continue to refine our training processes, as General 
Kamiya has mentioned, refine the conditions and standards. We 
have continual feedback loops at every phase of that process. 
There will be continued growth and improvement of our readiness 
and training in that area.
    But from a standpoint of changing the direction, the demand 
signal that we are seeing from the Central Command is pretty 
much constant as far as we can see on our time horizon. It 
looks like about 10,000 Navy folks for the foreseeable future. 
That is what we are planning. And from a standpoint of the 
readiness impact, the Navy stands fully ready to do all of our 
other assigned missions.
    Mrs. Boyda. Does it have any impact on recruitment or on 
retention?
    Admiral Giardina. The most recent retention numbers, which 
I don't have here with me, indicate that we are not seeing a 
significant negative change. We are meeting our overall 
numbers. There are a couple of areas that we are a couple of 
percentage points short of goal, but in general we have not 
seen a negative impact on retention.
    From recruitment, there is only a certain manpower pool out 
there. It is kind of fixed and we are all competing to get our 
fair share of that, if you will. We continue to struggle in 
some very narrow areas that tend to be in high demand, but in 
general our recruiting numbers are still pretty good.
    Mrs. Boyda. Any additional comments, General, from the Air 
Force's standpoint?
    General Gibson. Yes, ma'am. We are continuing to meet our 
retention goals as it stands now, but anecdotally, we are very 
concerned. I can say that Air Force leadership----
    Mrs. Boyda. I am sorry. Anecdotally you are very concerned 
about----
    General Gibson. In the sense that I think there are 
statements out there and concerns among leadership that the ILO 
task in the conflict will begin to have a negative retention 
effect. To date, we have not seen that. However, I assure you 
Air Force leadership is very focused on that to make sure that 
we are able to walk our way through that.
    Mrs. Boyda. Okay. I just want to thank you all for your 
straightforward testimony during the questions. Thank you.
    Mr. Ortiz. Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    I, first of all, thank all of you for your service and for 
being here.
    I want to go back to the chairman's initial question and 
kind of revisit it, because I have a large military presence in 
my district. I really haven't received feedback from the 
families of service members complaining that they lacked the 
proper training to go into theater.
    I would like to ask each of you, but specifically starting 
off with you, General. Are you of the opinion that you have 
sent any service members into theater that were ill-prepared, 
did not have the skill-sets necessary to carry out their duties 
once in theater? General Kamiya.
    General Kamiya. Sir, we receive constant feedback from the 
services through JFCOM components on the readiness of their 
forces, individuals as well as units. To date, we have not 
received any indication that any individual or service member 
is being deployed overseas to the CENTCOM area of operation not 
prepared.
    Mr. Rogers. Would you send a service member into theater 
that you felt was not prepared with the skill sets necessary to 
carry out their duty?
    General Kamiya. Sir, I can't speak for the individual 
service chiefs, but as a former commander myself, I would not 
deploy someone to the combat theater of operation if they did 
not meet his combat skill requirements or functional competence 
requirements.
    Mr. Rogers. Have you, to your knowledge, done that?
    General Kamiya. No, sir. I have not.
    Mr. Rogers. I would ask that question of any other member 
of our panel.
    General Halverson. I would just like to echo the answer 
from the chief of staff and the secretary of the Army. That is 
an absolute red line in the aspect. They will not deploy any 
untrained soldier into harm's way. That is the checks and 
balances that we have with our forces' command that train in 
the readiness, and they are working with First Army, with the 
reservists and stuff.
    We have a very good template of those training requirements 
that we do, and that is that whole certification process that 
we go through with the commanders, with their leaders, to 
ensure that they feel very, very comfortable about what they 
are trained in and that they have the skill sets to take on 
that mission.
    With that, it then becomes their percentage effectiveness 
they feel that they are, and where they are manning, equipping 
and training and the readiness that they have. To be specific, 
though, and I was the deputy commanding general for the Fourth 
Infantry Division, and we just got back in mid-November. We 
were a multinational division, Baghdad.
    It is very true what General Kamiya said in the aspect that 
we have done very rigorous hands-on training now, be it from 
the basic course, basic training courses, all those courses, 
the individual skill check courses, hands-on to let them know 
that they are in that.
    We have instituted a--where everyone is an infantryman-type 
mentality to start moving toward our officers and everything 
like that. But the reality as the commander when we went in 
there, we knew we were at high risk that first 30 days to just 
get the operational environment, because no where here in the 
states can you prepare yourself mentally, physically, and all 
those things for the conditions that you see either in 
Afghanistan or Iraq itself because of the complexities.
    So good leadership and stuff is there to make sure that you 
over-watch that with your pre-combat checks and your 
inspections. So we can continue to work that. What is very good 
about that is that we have pre-deployments with units rotating 
so they can get those lessons learned. We share those lessons 
learned so they can get that operational environment and who 
are the actors and who their players are. And commanders who 
they are replacing and stuff have constant dialogue with the 
ones that they are replacing.
    So I have never seen a more cooperative cross-sharing of 
information so everyone gets the environment about right, so 
they can be mentally and physically prepared for combat.
    Mr. Rogers. Admiral.
    Admiral Giardina. To answer your specific problem, we have 
not knowingly deployed anyone who didn't meet all the training 
requirements as specified by the combatant commander and would 
not do that. That is a clear red line for us.
    We have put a very robust monitoring program in place to 
ensure that the training standards are being met; the feedback 
mechanisms both at the Army facilities where we are doing our 
training with Navy liaison there to monitor that; doing self-
assessments; also doing surveys at various points along the 
pipeline once the forces are in-theater and prior to 
redeployment; and also taking continual feedback on a bi weekly 
basis from the combatant commander.
    I think we have a robust process in place, but I would 
stress that we continue to try and improve that process. It is 
never going to be perfect. We will continue to learn. We have 
an enemy that is adapting over there. New tactics, techniques 
and procedures (TTPs) are developed all the time, and when that 
happens, we want the feedback to be very quick so that we can 
respond to it and get the best possible training for our 
sailors before we deploy them.
    Mr. Rogers. General.
    General Gibson. Sir, I know Air Force leadership would 
never knowingly put any of our airmen in harm's way unless they 
were properly equipped or trained. By way of anecdote, again I 
was the first commander at Balad, Iraq to receive our first ILO 
teams in February of 2004.
    I can assure you, especially as we were carving new ground, 
that that was the number-one priority I had. That we would not 
put anybody out there, and it was clearly a risk to do that, 
that weren't adequately trained and adequately equipped, to the 
point of sharing my concerns with those Army battalion 
commanders and sergeant majors to make sure that there was 
immediate feedback if they felt that any of our folks were not 
adequately prepared to be a member of that team.
    Mr. Rogers. General.
    General Egginton. Sir, from the user perspective, from 
CENTCOM's perspective, I don't want to give the impression all 
is rosy, because it is not all rosy. The point that Congressman 
Taylor mentioned, that you will find individuals that arrive 
that on occasion we have sent people home that didn't have the 
right training. I am talking individuals, not units, but 
individuals. We have sent them home because they didn't either, 
and it was an oversight. You look commanders in the eye and 
say, how did this happen? They, well, you know, ten percent 
don't get the word, or five percent, but not that high, 
obviously. That happens on occasion.
    On the other hand, another issue that comes up and becomes 
a mitigating problem for us in CENTCOM is that units spend, in 
order to achieve the training level that they desire to, that 
we want them to achieve, there are times when they are late 
arriving in-theater because they have spent more time training, 
either because of mobilization policies that prevent them from 
mobilizing up to a certain point.
    So now their training time is compressed. So they will say, 
hey, in order to get the training you want from us, we need to 
extend their training period, which means what? It means they 
show up late to theater, which now we have to find a gap filler 
or mitigating kind of a circumstances in theater to go.
    And also, if they do show up, for example that young troop 
that didn't know what a jammer was--hopefully they educated him 
before he left--but before he drives a Humvee in CENTCOM's 
theater of operation, he goes to the range and he drives his 
vehicle down an alleyway with real IEDs, with real indicators 
that obviously don't explode, but you get the smoke coming out 
and they say, oops, you know. And so he will get that training.
    But can you say that happens 100 percent of the time 
always? No, I can't guarantee that, sir. But by and large, to 
the point that we are satisfied with the training, yes. But we 
wish they could cram it in a little faster so that we could get 
them there on time, sometimes would be our only complaint on 
that point.
    Mr. Rogers. Thank you.
    I yield back, Mr. Chairman.
    Mr. Ortiz. Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman. Thank you for holding 
this hearing.
    And thank you, gentlemen, both for being here this morning 
and for your service.
    I want to start out by asking, because I know there are a 
number of you, at least from your comments, that you have 
served in Iraq and perhaps Afghanistan. As far as Iraq, can you 
describe the environment for the committee? In other words, 
where are the frontline and where are the rear areas? Can 
anybody do that?
    General Halverson. Sir, obviously, as you know, in Iraq it 
is a very asymmetric threat. There is no front or is there is 
no rear lines. It is common----
    Mr. Reyes. Pretty much the whole country can be a combat 
area, right?
    General Halverson. It can be, because the enemy is in your 
terrain. Obviously, because of our intelligence work and stuff, 
we know where a lot of the hot spots where the enemy is 
focusing his efforts, or as we look at his networks and stuff. 
And so there are many places I could go in Baghdad on a daily 
basis where I felt much more comfortable. But when I entered 
some places, let's say Sadr City or something like that, 
Amadiyah, then you clearly knew that you would have to be very 
cautious.
    Mr. Reyes. But generally speaking, the whole country can be 
considered a combat area for--especially when we are training 
individuals or we are deploying individuals whose--I don't 
know, in the Army is called an MOS; I know it is different in 
the Navy and perhaps the Air Force. But when their mission, 
their occupation may be different than, say, a truck driver and 
those kinds of jobs that have been really the big stress factor 
for us particularly in Iraq.
    So when we talk about training people for combat support to 
go into Iraq, it is really we ought to be preparing them for 
the worst possible scenario, which is combat. Am I correct?
    General Halverson. Yes, sir.
    Mr. Reyes. Because that is the likelihood they will run 
into. I represent Fort Bliss, as I think some of you know--the 
home of the 507th, who in the first weekend that the 507th 
supports Patriot Battery, got into An Nasiriyah and we had nine 
casualties.
    And talking to some of those that survived, they reported 
to us, you know, lack of training, going over the berm without 
the confidence that they were prepared certainly for getting 
into a situation like they got into, which was in the very 
first weekend of the combat in Iraq, which, you know, I could 
understand.
    But the thing that concerns me, and I know the chairman and 
I have been to Walter Reed and other places where we have had 
soldiers tell us, ``We were trained on one type of vehicle or 
one type of weapon, and when we got over there it was 
completely different. We had to OJT--on-the-job training.'' And 
that, frankly, is now five years after the initial first 
weekend that the 507th got into that situation, and that is 
very concerning.
    I am assuming that is why we are having this hearing. It is 
not so you guys can come in and tell us everything is going 
great.
    And thank you, General Egginton, for making the comment 
that not everything is rosy and there still are issues and 
problems. That is where we want to help, but we can't help if 
we don't have a clear understanding of what the challenges are. 
We know that being able to distribute supplies in the theater 
is an issue. We know we don't have enough people to train, to 
operate the convoys and deliver supplies because we have heard 
of the shortages.
    But when we have two facilities that are training people to 
go over there, and then when we get the feedback from soldiers 
that are wounded, that tell us, ``Listen, we were charged with 
providing security for a convoy. We got hit and the convoy 
drivers didn't know how to respond.''
    I will admit to you, I don't know how one is supposed to 
respond when it hits the fan like that. But I am imagining they 
get training for that, I mean, either evasive tactics or, you 
know, circle the wagons. I don't know, some kind of training 
that tells each and every driver, this is what you are likely 
to run into, if you get hit with IEDs, if you get ambushed, if 
you get this or that, this is how you are going to respond.
    We are still getting those kinds of stories. So I am hoping 
that there is, as some of you mentioned, a system of where you 
are taking the feedback so that we are not putting people in 
jeopardy unnecessarily because either the tactics have changed 
or you are not training on the same kinds of tactics. Or the 
biggest fear--and you were with us when we talked to a wounded 
Army soldier--was that they had Navy contractors and Air Force 
drivers in this one convoy, if you remember. And he said it was 
a ``cluster,'' and he used another word after that. That told 
us that they had a heck of a time trying to organize a response 
to the attack of that convoy.
    That is why we are holding this hearing, and that is why it 
is important and imperative that every one of you in your 
respective roles does a better job of preparing people as they 
deploy over there. Because I hear it from soldiers, both at 
Fort Bliss and soldiers that have come back, anecdotally, and 
have said, ``Look, we were attacked. We were providing security 
for a convoy, and we just didn't have the cohesive response 
that we should have had.''
    So it is a big challenge. I know that you said it is an 
asymmetrical threat that we are addressing, and an asymmetrical 
environment. But five years into it, we ought to be doing 
better than apparently we are. So any way we can help, let us 
know.
    Thank you.
    Thank you, Mr. Chairman.
    Mr. Ortiz. Thank you.
    My good friend, Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you. I am sorry I missed all 
of this hearing. I was really looking forward to it, but as 
everything happens up here, there is a conflict with another 
hearing that I needed to testify.
    I pretty much wanted to ask--and this can be for anyone--I 
realize that when a nation is at war, things don't work like 
they are supposed to when you lay it out on paper. There are 
times that you have all you need, and there are times you don't 
have all you need, whether it be equipment or manpower.
    Recently, I read in National Review, I believe it was, 
talking about the United States Army. ``Code Yellow,'' I 
believe was the title. I can't remember. I don't have it before 
me, but there were several comments in there by Barry 
McCaffrey, who I think most of us in the Congress--as we do 
you, by the way--have great respect for.
    The point was that the military--and this is no deep 
question, but it is a concern I have--that the military, 
because when we went to Iraq, they didn't listen to the 
generals who said you need more manpower. If you are going to 
hold the country, you have to have more manpower.
    So it seems now that what is happening is we are sending 
men and women--I have Camp Lejeune down in the district I 
represent. As we are sending more men and women back for the 
second and the third time, we know that they are given the very 
best, but they are getting tired. The mental tension, the 
physical tension is really beginning to weigh.
    In that article that I read, it seems to be that there is a 
concern that we are now having to lower the standards, somewhat 
of what they did during Vietnam. And when you start lowering 
the standards, particularly when you have such a great 
volunteer force that again is stressed, you are beginning now 
to supplement that force with people with--a couple of the 
articles I read said that they were even letting some with 
felonies.
    I mean, I guess there are degrees of felonies obviously, 
but it sounds like to me that we are beginning to get to a 
point that we are using, you know, we are trying to patch 
certain situations; that if you trained me for a certain 
position, but then when my time comes that we have to fill in 
the slot on another position because we don't have anybody else 
to fill, so you are going to take me because I have been 
somewhat prepared.
    This is my question, and it is probably being repetitive, 
quite frankly. Are we at a point that we are close to Code 
Yellow? That because of the--I know that, and I think it was 
former secretary under Reagan, Lawrence Korb. He made the 
statement--and I still was just shocked with that--as it 
relates to the graduates of West Point. We have the lowest 
percentage of those graduates in 30 years staying in the 
military.
    The officers--I don't know if this is captain or major--but 
my rambling is leading to this. If I am being repetitive, I 
apologize, but just how bad is it? I mean, is the backup so 
fragile--meaning the backup of those who are going into the 
military for the first time, and they are being told we are 
going to train you in this. But yet we don't know what we are 
going to need six months from now, and it might be what you are 
being trained in, and now we are just going to have to use you 
to fill the slot.
    General Egginton. Sir, let me just I think provide some 
context, and then I will defer to my service counterparts here.
    First of all, the way the global force management process 
defines in lieu of categories. First of all, if you take the 
enormity of force requirements today, about eight percent of 
those requirements fall under the in lieu of category. The 
global force management process subdivides in lieu of force 
solutions into three basic categories.
    The first is a joint solution. That is, one service 
provides a capability to another service, but this unit is 
operating in its core competency. A good example would be a 
Navy Seabee battalion operating in lieu of an Army combat heavy 
engineering battalion. So these sailors will be operating 
within their core competencies.
    The second category, sir, is remissioning. That is when you 
take a unit and have to re-train them to accomplish a mission 
outside of their core competencies. A good example would be 
Army logistical unit being remissioned to do convoy security.
    The final category, sir, is retraining. And that is taking 
individuals from a variety of potential services or units to 
form a unit to provide a capability outside of their core 
competencies. The reason why I say this is, again just for 
context, is that within the in lieu of categories of forces, 
about six percent are involved for sourcing solutions that have 
service members accomplishing missions outside their core 
competencies.
    I will defer now to each service for additional comments.
    General Halverson. Sir, I will try to answer your specific 
question because I think it is more of a readiness question 
overall of the force than some of the in lieu ofs.
    One is from the Army's perspective. I think, even with 
General Casey coming on board and Secretary Geren, you know, we 
are stretched because right now our global force management 
requirements are like 33 Brigade Combat Teams (BCTs), when you 
are looking at it. And we have 20 in Iraq right now, so the 
demand is high when we don't have that much structure to be 
able to do that.
    So when you are in Iraq, like you are right now, when you 
come back you are going to take a short re-set, and then you 
are going to prepare to deploy to meet the global demands of 
the combatant commander at CENTCOM. So that is the reality. 
Especially as you have been doing this persistent fight now for 
the last seven years, be it Afghanistan and now Iraq, that it 
is strained.
    As you all know here in this great committee, you can 
assume readiness, be it from the equipment that you pushed over 
there and now is left-behind equipment, and then folks come 
back here. Now it is missing equipment from the table of 
organization and equipment (TO&E). Or you know, the constant 
things of people, we need to continue that support from this 
subcommittee, that readiness, and therefore you need to 
continue to have program dollars to fix it so we can, once the 
demand does drop, we can have that continual thing so we can 
have an operational reserve. We can have this thing to be able 
to prepare for a global fight against terrorism as we see it.
    So you are right. I mean, it is pushing the forces, and 
therefore we turn to the Joint Force commander to look at other 
services to pick up some of those aspects that we have in the 
Army. But it is going to be the continuing great work of this 
committee to facilitate the funding that we do need, so not 
every up-armored Humvee has to be pushed into theater. And we 
can keep them in the training base to have the folks there 
training so they can see what an up-armored Humvee is and what 
it looks like, so it is not, you know, in Iraq when they look 
at these things.
    The Army is having this strategy to where we are going to 
get to those things to give it to our Training and Doctrine 
Command (TRADOC) and our forces' command, those types of 
equipments that we are not having to push immediately into the 
force. Because of, as you know, the catastrophic loss of 
equipment that we have had--the M-1 tanks, the Strykers, 
helicopters--all those types of things that we have lost that 
degrade readiness.
    And so the Army looks forward to working with this 
subcommittee as we look at the overall readiness of the Army, 
as we continue this persistent conflict.
    The second thing is, we are very cognizant of that, because 
obviously because of this demand and the supply issue, you 
know, we had to go to the 15-12 in the policy, which we know is 
training on the forces. We want to get down to where we are not 
at that. And we can get to the 1:1 and those types of standards 
that we know, when you look at the strain on forces and stuff, 
is a better model for our soldiers and their leaders.
    Mr. Jones. Thank you, Mr. Chairman.
    Mr. Ortiz. Ms. Bordallo.
    Ms. Bordallo. Mr. Chairman, thank you for holding this 
important hearing.
    I want to thank all the witnesses for their service to our 
nation.
    The global war on terror has tested the endurance and 
adaptability of the United States armed forces for just about 
six years now. Our forces remain strong and ready to fight any 
threats. However, the methods in which we fill wartime 
personnel requirements is cause for investigation.
    General Kamiya, you state in your testimony the Joint 
Forces Command serves as the primary joint force provider and 
trainer. Does JFCOM see its role as the primary agent for 
developing a baseline of standards for training service members 
selected through in lieu of sourcing?
    I want to ensure that the training on naval augmentees 
receives for sourcing a security forces role that is typically 
performed by the Army is the same training an Army security 
forces unit receives before they go into an area of combat 
operations.
    So can you confirm that the training is identical?
    General Kamiya. Ma'am, I would say that it is up to each 
individual service to train in accordance with its roles and 
functions. As I have said before, however, JFCOM does have a 
huge role, going back to the CENTCOM area of operations, to 
continue to refine and define, to make sure that the tasks and 
conditions under which the combatant commander expects combat 
skill and functional competencies are clearly articulated and 
understood by each service.
    It will then become the individual service responsibility 
to conduct an assessment of whether their standard training 
programs on the roles and functions meet the combatant 
commander requirements and internal to the service, make the 
assessment if any increase in training capability is required.
    But this is where Joint Force Command's primary role is. It 
is also our role for those joint tasks that require services to 
operate together to make sure that they, too, are clearly 
understood, down from the operational level Joint Task Force 
training we do, to the individual service joint training 
programs that we sponsor through a variety of our programs.
    So that is JFCOM's role. I think each service, given its 
own set of core competencies, should develop their own 
understanding and way, if you will, to meet the combatant 
commander requirements. That is not JFCOM's responsibility.
    Ms. Bordallo. So your answer to that question then, 
General, is that they are necessarily not identical in some 
cases.
    General Kamiya. That is correct, ma'am.
    Ms. Bordallo. This is for any witness. As you know, this 
committee passed legislation that increases the end-strengths 
of the Army and the Marine Corps forces. Do you feel that 
increases in these services' end-strength will help reduce the 
reliance on in lieu of sourcing?
    The second part of that question is, the ILOs are not--
those that are not volunteers, what has been the impact and the 
morale and the retention among them?
    Anyone can answer that.
    General Halverson. Ma'am, one, obviously, reference the 
chief of staff of the Army is working with the Secretary of 
Defense to lay out our plan to increase the Army and the 
growth. And we think obviously that is a good step forward 
because if the demand is such, you are going to need these. And 
we are reshaping what those are so we when we see some MOS's 
some say they can use, we can put that force structure in 
there.
    So we think that is a good first step in the commitment 
that it is going to take for us to do that. So that is the 
first step.
    Ms. Bordallo. So this is needed?
    General Halverson. This will assist us somewhat to get into 
those issues of we would call ``dwell'' and all those types of 
things from a demand perspective.
    Ms. Bordallo. And the second part of the question? Those 
that are not volunteers, how is their morale and the retention 
among them?
    General Halverson. Ma'am, reference like we addressed 
earlier, is one of the things that we do find out that folks 
that go into the combat zone, their morale is high if they are 
doing the skill-sets that we said in their training up and 
stuff, and they are contributing to the fight. But it is a 
constant-type thing. The leadership has to be able to ensure 
that we are caring, feeding and maintaining those folks while 
they are there.
    And we also are monitoring that in the aspect that, but yet 
we also are monitoring those, the ones that may be in lieu of, 
like an artillery unit or whatever. What that does is look at 
their attrition, if there was a majority that are getting out. 
So it is something that the chief of staff and the secretary 
are looking at to ensure that we have the right mix.
    Ms. Bordallo. Mr. Chairman, I have one quick question also, 
for any of the witnesses.
    Has the increased use of ILOs forced the services to re-
think the current mix of forces, its basic supply and demands? 
For example, if the Army requires ILOs to fill military police 
positions, has the Army taken actions within its own force to 
create more military police positions? Do transformation 
effects like the Army's modular force take ILO sourcing into 
account?
    General Halverson. Ma'am, the short answer is yes, as we 
look at that. That will be with the secretary of the Army and 
the chief, once they finalize that, we will lay out obviously 
to the Secretary of Defense to bring forward. So we are looking 
at all those factors of what in lieu ofs and, as I would say, 
lower density, high demand of what those are.
    Ms. Bordallo. Yes. Any other comments from the other 
services?
    Thank you, Mr. Chairman. Thank you for the opportunity to 
ask the questions.
    Mr. Ortiz. Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you, Mr. Chairman.
    I just have three short questions.
    General Kamiya, this IA has been going on for how many 
years, individual augmentation?
    General Kamiya. Ma'am, the global force provider mission 
has been with JFCOM since 2004. I am going to assume that it 
has been going on since then. However, the way we track 
individual augmentees or in lieu of forcing solutions has 
evolved over time.
    In fact, the fiscal year 2008 global force management plan 
that is currently inside the Department of Defense for 
continued staffing will bring even further definition and 
clarity on the way we manage in lieu of solutions.
    Ms. Shea-Porter. It has been going on for a long time, so 
it seems like it would be appropriate for the Pentagon to 
possibly plan and actually bring people into the service and 
have them trained, instead of plucking them from various 
disciplines. That I find very disturbing.
    In the past couple of weeks, I have heard two 
neoconservative advisers suggest or agree that one way that we 
could increase our number of troops would be to go to countries 
where people are having trouble getting green cards and offer 
them green cards to fight.
    Do you agree with that? Is that a place that you would 
think is a good place to go?
    General Kamiya. That is difficult for me to answer, ma'am. 
Just know that JFCOM through its formal reporting procedures 
identifies what we believe persistent shortfalls as identified 
by all the services to the DOD leadership for continued 
analysis.
    General Halverson. Ma'am, to answer the question, 
obviously, there is no one asks that it be a condition to do 
that. But you know in our military, every year I have 
participated with some great soldiers that enlisted in our 
Army, where they became citizens of the United States while 
they were in combat, in the Green Zone, and we continue to have 
that.
    So that is obviously, you know, first generation folks are 
working very hard to become citizens of the United States, and 
one of the means to do that is that they fight for this 
country.
    Myself personally when I was in the embassy in Baghdad, I 
used to really work with my individual soldiers and found one 
that was a first generation person and say, you know, talk 
about his struggles of what----
    Ms. Shea-Porter. I don't want to interrupt, but I 
understand what you are saying, but I am not talking about 
people who are already here. I am talking about bringing people 
to our Nation. Is that something that you would see as a good 
idea, seeing that we are running out of troops and we can't 
keep using the IAs either? Have you heard talk about that?
    General Halverson. I have not heard any talk.
    Ms. Shea-Porter. Okay. It was interesting to me that I have 
heard it a couple of times in the past few weeks, so I just 
wanted to check and see if that is being kicked around as an 
idea.
    And then I would like to ask the admiral, I became aware of 
a situation where Naval Academy graduates are being sent to 
Iraq. It is not their MOS. They don't have any training at all.
    Is that a concern to you, that somebody who has been, say, 
trained as a pilot or whatever, is now going to be doing some 
infantry, or possibly doing infantry? What do you expect the 
training to be before that happens to individuals?
    Admiral Giardina. Ma'am, I have no knowledge of any 
individual augmentees being sent directly out of the Naval 
Academy without the service-specific training as called out by 
the combatant commander, although I can look into that and get 
back to you.
    From a standpoint of a permanent change of station (PCS) 
from a change of station assignment, to my knowledge every 
officer who graduates from the Naval Academy has additional 
training before they get assigned, but I can look into that and 
get back to you for the record.
    Ms. Shea-Porter. Okay, I may follow up on that. We are 
talking not directly--you know, 30 days from the academy. We 
are talking, you know, one year or two years or three years. I 
am being deliberately vague, but I think there have been some 
cases where they have gone in without having infantry training, 
and that is obviously disturbing.
    And then the other question I am going to ask General 
Halverson, and please tell me, is the first-time retention rate 
really down seven percent?
    General Halverson. Excuse me?
    Ms. Shea-Porter. First-time retention rates for enlistees--
I know there has been a drop. Is it about seven percent?
    General Halverson. Ma'am, I don't have a specific number. I 
will have to get back with you, and I will get back with you if 
there is a drop in first-time enlistments.
    Ms. Shea-Porter. I would appreciate that.
    I just wanted to say that I understand that you are all 
under great strain, and I appreciate your being here.
    Thank you.
    Mr. Ortiz. You know, when I served in the Army, my primary 
role was of course as an infantryman. My secondary was a 
military policeman and criminal investigator. If I was selected 
to be an augmentee or in lieu of, with the type of training 
that you have described today--you know, nine days, two weeks--
I would be very uncomfortable--very, very uncomfortable. I 
think we need to do better than that.
    If you look at the wounded that we have had in this war--
25,000 plus almost 4,000 killed--even though we have raised our 
end-strength by 30,000. This just shows that we have a 
tremendous shortage of troops, at least this is the way I see 
it. We were able to raise the end-strength by 30,000, and 
25,000 have been wounded, almost 4,000 have been killed.
    I think that one of the reasons why we are having to do 
what we are having to do now is because of the choice that we 
have. In my personal opinion, I think we are shortchanging the 
troops from getting the training that they need and having to 
change them from one position to another. This is creating 
morale problems. I can understand that these are the conditions 
that we face today, so we have to plug all these holes as much 
as we can with what we have.
    But you know what? This is what I stated in the beginning. 
This is very serious business. And this is one of the most 
important hearings that we have had. I mean, trying to send 
those young men and women and change them from one position to 
another, and maybe not getting them trained with the right 
equipment, and not having the length of training that they 
need.
    We are going to have votes in a few minutes. But I know 
there are some members who wanted to be here, but because this 
is the last week, or we hope so, before we recess, they are 
attending a lot of other committee hearings. And they might 
have questions for the record that we are going to submit to 
you.
    But let me yield to my good friend, Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you.
    My staff just reminded me that about two months ago, we got 
a call from a constituent down in Havelock, Cherry Point Naval 
Air Station. Her husband is actually in the Navy. And he is 
going to be assigned to an Army attachment. She was concerned, 
and he had shared, because we talked to him as well, that he is 
wearing a different type of fatigues, or combat fatigues, than 
the unit he is going to be assigned to.
    In other words, that in itself seemed to be a--and I can 
understand--a real concern of the fact that Navy is going to be 
augmented with the Army, yet the fatigues are going to be like 
a sore thumb and say that you are not really part of this group 
because you don't wear the same type of uniform.
    Does that happen often? I mean, this woman--and we did talk 
to her husband, he is an officer--is very concerned that his 
fatigues were not like the fatigues of the unit he is going to 
be assigned to.
    Admiral Giardina. Let me address that, sir, from a Navy 
perspective.
    The differences in the uniforms are primarily cosmetic. The 
background on those, the desert camouflage versus the more 
digital pattern that the Army wears, from a standpoint of 
functionality and everything else, they are identical. That is 
the service standard to equip in that manner.
    Now, if there is any reason where the combatant commander 
feels that that is a problem, they have the ability to ask the 
other services who are not wearing the exact uniform of the 
unit they are being assigned to, they can call for that and we 
accommodate that. So it is clearly at the request of the 
combatant commander.
    When we have looked at instances of this, it is usually 
characterized more as a different type of equipping, and we 
have gotten to the point where it is all just cosmetic. It has 
nothing to do with the quality of the uniform or the 
functionality or the body armor or any of that kind of stuff.
    So I don't think that it makes a significant difference. We 
have not had any feedback where it has been a significant 
morale problem or that somebody has stuck out like a sore 
thumb. Again, the combatant commander has the ability to 
accommodate if they think it is a problem.
    Mr. Jones. Admiral, I am sure it is really not. I accept 
that. You are in, and I am not, but I did kind of see the point 
that was being made by this officer, that if we are supposed to 
be a unit of one, that maybe it would make a difference. If it 
is cosmetic, so be it, but again I remember the fight about the 
beret, quite frankly, a few years back.
    But anyway, thank you for your answer.
    Mr. Ortiz. You know, I was a law enforcement official 
before, and when you are watching for speeders, you look at the 
color of the car, something that stands out--red, yellow, 
Corvette. You know, and I don't think you gentlemen would be 
walking the streets of Baghdad--and this is my own personal 
opinion--in your uniform. I feel that because of the changing 
uniform and colors, you might become a target. I could be 
wrong, but I can remember when I was a rookie patrolman. I 
looked for the sports car and the color of the vehicles, and I 
knew that they would be speeding.
    So we want to try to avoid that, but maybe you do have a 
point, admiral. But I would like to see maybe if we have 
another hearing, I would like to talk to the in lieu ofs, those 
augmentees, the corporals, the sergeants, the specialist fourth 
class's, to come and testify to us before this committee. We 
would like to have them here.
    We thank you for your testimony today. We have a series of 
votes, and we don't want to delay you anymore. We will be 
submitting some questions for the record for some of the 
members who couldn't be here.
    Would anybody else like to make a statement? We have about 
ten minutes before the first vote begins.
    Not having any more questions, the hearing stands 
adjourned.
    Thank you so much for your testimony.
    [Whereupon, at 11:35 p.m., the subcommittee was adjourned.]
      
=======================================================================

                            A P P E N D I X

                             July 31, 2007

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 31, 2007

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================

             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             July 31, 2007

=======================================================================
      
                    QUESTIONS SUBMITTED BY MR. ORTIZ

    Mr. Ortiz. Please explain the Unit Requirement Form Change process.
    General Egginton. The supported combatant command (COCOM) annotates 
the recommended administrative changes in Force Requirements Enhanced 
Database (FRED)/Joint Force Requirements Management (JFRM) systems. The 
COCOM then submits a message to the Joint Staff identifying pending 
changes where concurrence is sought.
    The Chairman of the Joint Chiefs of Staff (CJCS) will then 
officially direct Joint Forces Command to staff these changes to all 
the applicable Force Providers, acting as a clearinghouse of 
information to avoid multiple, conflicting responses. The respective 
force provider must access Force Requirements Enhanced Database (FRED)/
Joint Force Requirements Management (JFRM) systems to see the requested 
change. Force Providers will review the requested changes and provide 
input in an electronic staffing package back to Joint Forces Command.
    Review from Force Providers under their purview will fall into 
three categories: concur without comment, concur with comment, or non-
concur. Once that information is received from all concerned, Joint 
Forces Command sends a message to the supported Combatant Command 
detailing the results. At that point, the Combatant Commander is 
authorized to change those Unit Requirement Forms that received full 
concurrence with comments as appropriate.
    Joint Forces Command updates their databases and submits approved 
administrative changes to the Joint Staff to be included in the next 
available Chairman Joint Chiefs of Staff Execute Order Modification.
    Changes which did not receive concurrence, or in cases where the 
Combatant Command could not accept the Force Provider comments, require 
a formal Request Force Forces for continued staffing.
    Mr. Ortiz. In your testimony you state that ``in some instances 
Mixed-Composition units and Reserve Component units have reported to 
their mobilization center with less than the required number of 
personnel and with training shortfalls . . . which ultimately becomes 
CENTCOM's risk to mitigate.'' How is that risk mitigated?
    General Egginton. It is the Joint Force Provider's responsibility 
to organize, train and equip personnel once ordered by the Secretary of 
Defense. In some instances Mixed-Composition units and Reserve 
Component units discover that additional training is required to get to 
a level of required proficiency once the unit arrives at their 
respective mobilization station. An issue of major concern arises when 
a unit requires additional training time and can no longer meet the 
arrival date. In these cases there are limited options to maintain 
mission capabilities. Joint Forces Command in coordination with Joint 
Force Providers is initially responsible for ensuring that the 
requirement is met by nominating other units if available. In instances 
where the delayed unit is a rotational force and there are no 
additional external units available the risk is only mitigated by 
either extending the current unit in theater or diverting existing 
assigned personnel which compromises other missions. If the unit is 
filling an emergent requirement, the component must delay or reassign 
forces to execute the mission. In the event that troops are not fully 
trained once they are in the theater, USCENTCOM components work to 
bring them up to current requirements and familiarize them with local 
Standard Operational Procedures; this training is normally conducted in 
a non-hostile environment in order to reduce risk to the new forces.
    Mr. Ortiz. In your testimony you state ``it would be helpful for 
training of In-Lieu-Of units to be standardized prior to arrive in 
theater to prepare them for the range of missions faced when performing 
operations.'' To whose standards and whose responsibility is that?
    General Egginton. When a Joint Force Provider nominates a unit to 
fill a requested capability, US Central Command's expectation is that 
the unit be manned, trained, equipped and certified to execute the 
mission prior to deployment. The individual service Force Provider is 
responsible for ensuring personnel are trained and proficient in 
accordance with Central Command's standards, Training, Tactics and 
Procedures (TTPs) and doctrine outlined in Joint Publications to meet 
mission specifics.
    Mr. Ortiz. In your testimony you state that ``In some cases, Joint 
Force Provider interpretation of mission requirements due to a 
difference between cultures and philosophies may limit the score of the 
mission and the capabilities of the ILO.'' Please provide some examples 
of that situation and explain the impact on unit readiness caused by 
that situation. How is CENTCOM working with JFCOM and the Services to 
mitigate that situation?
    General Egginton. One example is the Army, Navy, and Air Force 
Explosive Ordnance Disposal (EOD) units are trained, manned, and 
equipped differently. CENTCOM has requirements for EOD teams and 
presents these requirements in the Request for Forces and Unit 
Requirements Form. As a result of different service philosophies on EOD 
unit manning, training, and equipping, sourcing of CENTCOM EOD 
requirements may result in varying types of units. These units may be 
trained in tasks and missions not required to accomplish the CENTCOM 
mission, requiring CENTCOM to provide or seek additional training, 
manning and equipment to perform CENTCOM missions.
    Recently, USCENTCOM has encountered issues with Force Providers 
pushing back on required tasks because the mission requirements could 
not be completely predicted and documented during the planning stage. 
Despite the fact that most tasks were well within the respective unit's 
skill sets, the units hesitated to perform tasks required by the 
mission because the tasks were not specifically noted in the Unit 
Requirement Form.
    Through the Unit Requirement Form Change Request Process, Joint 
Forces Command and USCENTCOM continuously refine the mission specific 
tasks and capabilities to ensure the right personnel are sourced to fit 
the requirement.
    Mr. Ortiz. Chemical and artillery units are being remissioned to 
military police. Even with specialized training, the leadership of 
remissioned units does not have experience comparable to leaders who 
spent their careers in the job. This creates two net effects: core 
skills atrophy without use and strategic risk increases because 
remissioned troops are not qualified to do full-spectrum missions in 
either their original MOS or their new MOS. Are combatant command 
requirements being filled by soldiers with true capability in that 
mission area or are there shortfalls in the Army's ability to fill 
them?
    General Egginton. In-lieu-of sourcing, by its nature, is only 
considered when services lack units with the requested core capability. 
When a Joint Force Provider nominates a unit to fill a requested 
capability, USCENTCOM's expectation is that the unit be manned, 
trained, equipped and certified to execute the mission prior to 
deployment. The individual service Force Provider is responsible for 
ensuring personnel are trained and proficient in accordance with US 
Central Command's requested requirement, Training, Tactics and 
Procedures (TTPs) and doctrine outlined in Joint Publications to meet 
mission specifics. USCENTCOM reviews each sourcing solution nominated 
by the Joint Force Providers to ensure that the solution is viable and 
acceptable.
    In the example of chemical and artillery units re-missioned to 
perform security duties; this remissioning leverages the basic soldier 
skills required to perform guard duty and patrols but does not require 
soldiers to perform the full-spectrum skills required of trained 
Military Policemen.
    Mr. Ortiz. When a Request For Forces is issued, does it request a 
specific number of personnel, or does it request a capability? Are 
there issues where unneeded personnel are deployed simply need to meet 
the Army's manning standard rather than to fulfill a true combatant 
commander requirement? If so, what is being done to mitigate this over-
assignment of personnel?
    General Egginton. The ultimate goal of a Request For Forces is to 
request a capability that equates to a standard off-the-shelf service 
unit manned with a standard number personnel. If less than or more than 
a standard unit is needed, the request is tailored and annotated to 
reflect the actual personnel numbers with troops to task assigned. 
There are unique missions involving specialized task forces, training 
teams and requirements where a specified number of personnel is 
required (i.e. detainee guard missions where a desired guard to 
detainee ratio is required). In all cases, USCENTCOM works with the 
Joint Force providers desire to keep unit integrity to the maximum 
extent possible.
    Mr. Ortiz. The Air Force does not remission units and will divest 
itself of interrogation and detainee operations in FY 2008. If the 
Services stop doing certain missions, what is the impact on sourcing?
    General Egginton. In the event that a particular Service cannot 
fill a USCENTCOM requested requirement, Joint Forces Command would be 
required to re-staff the sourcing requirements to other Joint Force 
Providers until an appropriate sourcing capability is identified.
    Mr. Ortiz. Once a Request For Forces is received, it takes time--
perhaps as much as 18 months--to train, equip and deploy to theater. 
Often, the situation and the needs on the ground have changed. What is 
the process for validating the currency of the Request For Forces? How 
do you ensure that the mission which the sailor or airman steps into in 
theater is actually the mission for which he or she was trained? How do 
you prevent assigned forces from being misused or under-used because 
circumstances generating the request are no longer valid?
    General Kamiya. A Request for Forces (RFF) is an emergent request 
for capability, submitted by a combatant command in response to a near-
term need. The process goal for combatant command submission of an RFF 
is no less than 45 days before the force should arrive in theater to 
answer the need. Combatant commands generally meet or exceed this goal 
with RFF submissions averaging approximately two months prior to force 
arrival in theater. Because of the emergent nature of the requests, 
Requests for Forces reflect current, valid theater needs.
    As the need for the force or capability endures into the following 
year, the combatant command consolidates the force request with others 
into an annual theater force requirements submission. All theater 
requirements from across the globe are then consolidated to describe a 
global force requirement that the Joint Force Providers will seek to 
satisfy via a recommended annual Global Force Allocation Plan. It is 
these annual requirement submissions (submitted at the start of a 
fiscal year for the following year--October 2007 submission for arrival 
in FY09) that can lead force arrival in theater by a long time (up to 
18 months is conceivable).

     For example: CENTCOM expresses a need for a security force to 
protect a forward operating base. CENTCOM submits a Request for Force 
describing the needed capability; the Joint Staff validates the 
requirement and USJFCOM (as a Joint Force Provider) recommends sourcing 
a Military Police company to fill the need. Ultimately, the Secretary 
of Defense approves the deployment and orders are issued to transfer 
operational control of the Military Police company from Commander, 
USJFCOM to Commander, USCENTCOM. As time progresses USCENTCOM 
determines that the need for this security force will endure through 
the next year. USCENTCOM staff ensures that they capture this need in 
their annual requirements submission for the following fiscal year. 
USJFCOM (as Joint Force Provider) will see the requirement for the 
security force in the annual submission and will develop a plan to 
source the force that will relieve the original Military Police company 
at the forward operating base.

    During the period of several months when the next annual Global 
Force Allocation Plan is being developed, there is significant 
collaboration between the combatant commands, the Joint Force 
Providers, the Service headquarters and the Joint Staff. This 
collaboration ensures that all are kept apprised of changes to the 
combatant command requirements brought about by changes in theater 
operations. The combatant command staff will track, via its subordinate 
headquarters, any mission accomplishments or other changes that enable 
force redeployments. In these instances, the combatant command would 
delete a force requirement and designate the force last filling the 
requirement as available for redeployment or reassignment to another 
theater mission. Any reassignment of a force to another theater mission 
falls under the authority of a combatant commander ``to perform those 
functions of command over subordinate forces involving organizing and 
employing commands and forces, assigning tasks, designating objectives, 
and giving authoritative direction necessary to accomplish the 
mission.'' (Joint Publication 0-2, Chapter 111)
    JFCOM collaborates closely with combatant commands and Service 
headquarters to resolve concerns over changes of mission for forces 
provided to combatant commands. Through this collaboration JFCOM has 
been able to facilitate adjustments to pre-deployment training to 
account for a pending mission change, or to provide different (more 
appropriate) forces to meet a changing mission requirement. This 
collaboration does not interfere with the combatant commander's 
authority to exercise command over his forces as outlined in the 
reference above.
    Mr. Ortiz. The definitions for Joint Manning Document and 
Individual Augmentee both refer to these as unfunded temporary duty 
positions, and the Committee has been told that the Services pay for 
them ``out of hide.'' Who pays for ILOs and what is source of the 
funding? How are the Services reimbursed and when?
    General Kamiya. In-Lieu-Of forces are made up of unit capabilities 
from the Services' force inventories. Costs associated with In-Lieu-Of 
sourcing are generated when different or additional equipment and 
training is required to prepare the force for deployment. While each 
Service is the best source for specific information on costs, funding 
and reimbursement data, JFCOM believes that funding for In-Lieu-Of 
forces comes from normal Service funding streams augmented by any 
supplemental funds.
    Mr. Ortiz. How long have the Services been providing capabilities 
in mission areas outside of their traditional roles and functions and 
on what scale? What is JFCOM's role in reconstituting these service 
members to their core competencies?
    General Kamiya. USJFCOM is aware that Services have been providing 
capabilities in mission areas outside of their traditional roles and 
functions since JFCOM assumed responsibility as Primary Joint Force 
Provider in August 2004. Undoubtedly, the Services provided similar 
capabilities earlier than that time, but JFCOM does not have data to 
pinpoint when their commitments began. In terms of scale, less than 10 
percent of the forces allocated to all combatant commands during the 
year are serving outside their core competency (the skill each person 
was trained to perform prior to OIF/OEF assignment). This includes all 
those individuals taken from units to serve on Transition Teams and as 
Individual Augments to Joint Task Force Headquarters staffs, though 
many of these people are employed using their core competencies.
    USJFCOM does not take an active role in reconstituting service 
members back to their respective core competencies. The reconstitution 
decision falls under the Service's Title X responsibilities. Once a 
unit has completed its mission or deployment, the individual Service 
will determine whether to return their members to their core competency 
or to perhaps maintain them in their new role in response to a growing 
demand for a specific capability.
    Mr. Ortiz. Please explain how the role of Individual Augmentees is 
different from service members who are serving in a joint sourcing, 
remissioning or retraining role. Do IAs serve in combat roles?
    General Kamiya. An Individual Augmentee (IA) by joint definition 
(CJCSI 1301.01C) is an unfunded temporary duty position identified on a 
Joint Task Force Joint Manning Document (JMD) by a supported Combatant 
Commander to augment headquarters operations during a contingency. 
Joint manning documents typically outline the personnel requirements of 
a joint headquarters.
    Normally the individuals requested for Individual Augmentee duty 
are in the enlisted grades of E6 and above, and for officers at the 
grade of O3 and above. Individual Augmentees perform routine staff 
functions on the headquarters staff. These individuals may be moved by 
the Joint Task Force (JTF) Commander from their assigned billet to 
another billet within the headquarters JMD which is vacant and 
considered more essential than the current billet in which they are 
serving. JTF headquarters Individual Augmentees should not be re-
assigned to duties beyond the scope of the headquarters staff.
    Individual Augmentees do not serve in combat roles. Individual 
Augmentees, by definition, are provided with the specific intent of 
augmenting a Joint Task Force headquarters. They are not intended to be 
on the front lines in combat.
    An individual involved in a joint sourcing effort, re-missioning or 
retraining role is serving in a unit-based capability to meet a 
combatant command requirement. These three categories constitute types 
of forces substituted for standard forces when the supply of standard 
forces is short. These categories have been collectively referred to as 
In-Lieu-Of forces. Individuals filling these categories of forces are 
not considered Individual Augmentees.
    A joint sourcing capability is a unit-based capability from one 
service substituting for a unit with similar capability from another 
service (e.g. an Air Force security element substituting for an Army 
military police unit is an example of joint sourcing).
    A re-missioned unit is one that is equipped and trained to perform 
a different mission (e.g., an Army artillery battery is trained and 
equipped to fill a transportation company requirement).
    Retraining occurs when it is necessary to form an ad-hoc unit from 
a group of individuals. The individuals are trained and equipped to 
deploy as a unit, but it is likely that they will be serving outside 
their core competencies. The need for retraining arises most often when 
the combatant command requests a tailored capability that does not 
exist as such in the force inventory.
    Mr. Ortiz. In your testimony you state JFCOM is building a 
capability to provide predictability for individual augmentees. What is 
this capability and how will it provide or improve predictability? When 
will it be implemented?
    General Kamiya. The capability that will enhance predictability for 
individual augmentees (individuals tasked to fill a position on a Joint 
Task Force Headquarters staff) results from an expansion of JFCOM's 
mission, as of 1 October 2006, to include responsibility for developing 
individual augmentee sourcing solutions. Following receipt of this new 
duty, Joint Forces Command worked to modify the process for combatant 
command submission of individual augmentee requirements so that all 
known requirements are submitted at least a year in advance of the 
individual's expected report date. These individual requirements are 
considered, together with all known unit-based force requirements, as 
USJFCOM prepares its recommended Force Allocation Plan for the 
following year. For example, in September and early October 2007, 
combatant commands will submit their force requirements for Fiscal Year 
2009 (FY09). As the FY09 Force Allocation Plan is developed and 
approved in the following months, the Services are given advance notice 
of the need for unit and individual augmentees--thus providing each 
Service predictability and sufficient time to facilitate deployment 
preparations. While we recognize that there will be short-notice 
requirements for individuals that will emerge during FY09, the majority 
(historically over 90 percent) of individual augmentee requirements can 
be predicted a year in advance.
    Mr. Ortiz. Who tracks Individual Augmentees' completion of joint 
functional training and what is the system/method for tracking?
    General Kamiya. Joint functional training for individual augmentees 
going to joint task force headquarters (JTF HQ) billets is provided 
online through the Joint Knowledge Online (JKO) web portal. The 
training consists of interactive courseware on JTF HQ fundamentals, 
informational presentations, robust discussion forums on key topics, 
and AOR-specific content. Completion of the interactive courseware and 
informational presentations is automatically tracked by JKO's learning 
management system, which also electronically delivers the content and 
tracks additional metrics. The learning management system produces 
periodic reports that allow USJFCOM training personnel to verify 
training completion. Active participation in the discussion forums is 
also a required element of the training and is monitored by subject 
matter expert facilitators.
    Mr. Ortiz. Combat lifesaver training is highly valued and almost 
universally requested by troops in after-action reports and post-
deployment debriefs. As of June 15, Combat Lifesavers Course 
certification is part of the program of instruction at Forts Jackson, 
Benning and Leonard Wood. Is this a legitimate training requirement for 
all augmentation service members? If so, what is being done to ensure 
the training is provided to those that need it?
    General Kamiya. Mission requirements are established by the 
geographic combatant command. These mission requirements drive a 
Service's unit/individual deployment preparation including equipping 
and training. The gaining combatant command may state specific training 
needs (in addition to more general mission requirements) that would 
also guide a Service's preparation of deploying units/individuals. 
Additionally, a Service may take the position that specific training is 
required, as a minimum, before the Service will certify that the unit/
individual is prepared to deploy. In the case of combat lifesaver 
training, USCENTCOM has established the requirement for one individual 
per squad to be combat lifesaver trained. This training is in addition 
to the first aid training required of every individual prior to theater 
entry.
    JFCOM's information is that CENTCOM has not evaluated combat 
lifesaver training to be necessary for all augmentation service 
members, nor have the Services established this training as a mandatory 
pre-deployment requirement. If either organization established a 
greater requirement, then pre-deployment training would be adjusted to 
provide the additional training and Services would modify their 
training programs to accommodate the additional throughput.
    Mr. Ortiz. It is our understanding that required training occurs at 
Camp Buehring and Udari Range in Kuwait prior to deployment into the 
combat theater. It is unclear how training requirements are tracked 
throughout the deployment process and across the Services. What checks 
are in place to ensure that the sailors and airmen are adequately 
trained for the mission they will perform when deployed? What is the 
feedback loop upon deployment to determine if the sailors and airmen 
are fully trained once they arrive on station? Who tracks whether 
individual augmentees--not those with a remissioned unit--are 
completing each of their training requirements before they arrive in 
theater? What is the paperwork trail and what is done when training 
inadequacies are identified?

    Admiral Giardina.

    1. What checks are in place to ensure that the sailors and airmen 
are adequately trained for the mission they will perform when deployed?
    US Fleet Forces (USFF) validates and establishes the training 
requirements to meet the mission and coordinates with US Army Forces 
Command (FORSCOM) to provide required training. First Army, Training 
and Doctrine Command (TRADOC) and US Army Special Operations Command 
(USASOC) all provide training coordinated through FORSCOM. This is 
supportive of the Joint Sourcing Training Oversight (JSTO) process. 
JSTO includes specific training requirements for specific Unit 
Requirement Form/Request for Forces (URF/RFF) assignments. This 
includes both skills training as well as combat skills training. Navy 
Expeditionary Combat Command (NECC), through their subordinate 
Expeditionary Combat Readiness Command (ECRC) has established Liaison 
Officers (LNOs) at each of the Army training sites to ensure all Navy 
AdHoc and Individual Augmentees attend scheduled training and provide 
immediate feedback to USFF and the Army training command on any issues. 
The Army ensures the required training is provided and remediation is 
conducted as needed until students satisfactorily complete the 
training.
    2. What is the feedback loop upon deployment to determine if the 
sailors and airmen are fully trained once they arrive on station?
    There are many feed back processes in place to advise both Navy and 
Army of any shortfalls in training:
    - ECRC provides an initial survey the last week of Combat Skills 
training to measure the participant's immediate reaction/satisfaction 
to the training program. (Kirkpatrick Level 1: Reaction). These 
responses are not mandatory; however, return rates from US Navy 
Individual Augmentee Combat Training (NIACT) are about 90% and at other 
combat skills training sites a little less. This survey has been in 
place since August 2006.
    - A 90-Day Boots on Ground (BOG) Survey is published on Navy 
Knowledge Online (NKO) as well as emailed by ECRC to individuals that 
have been deployed for at least 90 days since they completed their 
combat skills training. This survey is designed to measure transfer of 
behavior and actual use of the combat skills training. (Kirkpatrick 
Level 3: Transfer of Behavior) This survey collection has been in place 
since May 2007, therefore return rates are still being compiled.
    - Many RFF missions have theater to Navy and Army feedback via 
periodic Telephone Conferences (TELCONs). These include: a bi-weekly 
JSTO TELCON with all trainers and USAF participating; weekly RFF 611 
Counter Radio Controlled Improvised Explosive Device Electronic Warfare 
(CREW) TELCONS; weekly Camp Bucca Detainee TELCONs; and weekly Counter-
Rocket Artillery Mortar (CRAM) phone conferences. Routine OEF Situation 
Report (SITREPS) are provided to Commanding General, First Army and 
shared with the Services. Embedded Training Teams (ETT), Military 
Transition Teams (MiTT), and Provincial Reconstruction Teams (PRT) have 
quarterly planning conferences to adjust training and theater support 
as necessary to better adapt to the mission.
    3. Who tracks whether individual augmentees--not those with a 
remissioned unit--are completing each of their training requirements 
before they arrive in theater?
    The Navy Personnel Development Command (NPDC) and USFF coordinated 
the creation of the course curriculum for NIACT and have designated the 
Center for Security Forces (CSF) as the course curriculum manager to 
ensure the curriculum is current and remains valid. Center for Security 
Forces coordinates with TF Marshall at FT Jackson to ensure all IAs 
(those assigned to a Joint Manning Document) have met all training 
requirements.
    ECRC LNOs at each Army training site coordinates with Army training 
cadres to ensure that USFF established training is completed. Army 
maintains the documentation.
    4. What is the paperwork trail and what is done when training 
inadequacies are identified?
    Navy identifies problems through feedback from both personnel BOG 
in theater and from the Geographic Combatant Commander (GCC), and 
documents formally through surveys listed in paragraph two above, 
following up and improving the training standard when deficiencies are 
identified. Navy has no visibility on internal Army documentation, but 
is aware of a robust lessons learned database to document training 
deficiencies. FORSCOM and First Army oversee the training, and they 
follow Program of Instruction (POI) changes. Most of the inadequacies 
are a function of requiring more training for specific missions as well 
as additional combat skills training required to meet the mission. Most 
of the inadequacies are topical areas which need to be addressed. An 
example is the Afghanistan and Iraq Provincial Reconstruction Teams 
(PRT). Theater feedback has resulted in additional inter-agency 
training to better support the mission as well as language and cultural 
additions.
    Mr. Ortiz. It is our understanding that required training occurs at 
Camp Buehring and Udari Range in Kuwait prior to deployment into the 
combat theater. It is unclear how training requirements are tracked 
throughout the deployment process and across the Services. What checks 
are in place to ensure that the sailors and airmen are adequately 
trained for the mission they will perform when deployed? What is the 
feedback loop upon deployment to determine if the sailors and airmen 
are fully trained once they arrive on station? Who tracks whether 
individual augmentees--not those with a remissioned unit--are 
completing each of their training requirements before they arrive in 
theater? What is the paperwork trail and what is done when training 
inadequacies are identified?
    General Halverson. Validation of USN/USAF units is a Service 
responsibility. FORSCOM provides documentation of the training that was 
requested and the training that was provided. The Fleet Forces Command/
2AF validates the units for deployment. This validation includes 
equipping, Soldier Readiness Processing (SRP), training, JOPES.
    Each service has the responsibility to provide individual 
augmentees (IAs) that is trained for the missions they deploy for. Each 
service assesses its ability to provide this training and makes 
arrangements if required to augment their training capabilities. For 
example, Fleet Forces Command (FFC) has developed ICW Department of the 
Army, a Navy Individual Augmentee Combat Training (NIACT) program at 
Ft. Jackson, executed by TRADOC to train the minimal combat skills that 
the Navy feels are required for deployment in selected positions. In 
addition, the USAF has some home station training available, and 
occasionally will ask FORSCOM to conduct additional training for their 
individual augmentees as part of a larger group. Few USN/USAF personnel 
go thru the CONUS Replacement Center (CRC). However, if they attend the 
CRC training and do not perform the required tasks they are recycled 
until the next week. The CRC will not deploy them without them meeting 
the requirements. The Navy generally uses the Navy Individual Augmentee 
Combat Training (NIACT) at Fort Jackson, South Carolina, to meet their 
IA training requirement. The USAF generally uses their 19-hour training 
program or asks FORSCOM to roll some of their individuals into the 
combat skills training that Army is already conducting for another USAF 
requirement.
    Mr. Ortiz. Even if service members are performing the same mission 
for another service, they may be performing the mission under very 
different circumstances. For example, an airman doing flight-line 
security at Ramstein AFB, German, faces different challenges when 
guarding the flight line at Balad airbase in Iraq. How is training for 
service members deploying from Outside the Continental United States 
(OCONUS) conducted and certified?
    Admiral Giardina. The responsibility for training of service 
members filling requirements being satisfied by other Geographic 
Combatant Commanders (GCC) is the responsibility of the sourcing GCC. 
Some GCC individual AdHoc assignments support URF/RFFs which USFF is 
also sourcing. These GCC nominees will attend the same training track 
as individual augmentees assigned from CONUS activities. Coordination 
with GCCs also notes that Sailors assigned to missions can attend 
NIACT. Recently, EUCOM has sent Sailors filling intelligence billets to 
NIACT instead of abbreviated Army CRC training. There also are other 
agencies with Sailors assigned that support OIF and OEF. As an example, 
the Defense Logistic Agency (DLA) sends Sailors enroute OIF and OEF to 
NIACT training at Ft. Jackson.
    Mr. Ortiz. Even if service members are performing the same mission 
for another service, they may be performing the mission under very 
different circumstances. For example, an airman doing flight-line 
security at Ramstein AFB, German, faces different challenges when 
guarding the flight line at Balad airbase in Iraq. How is training for 
service members deploying from Outside the Continental United States 
(OCONUS) conducted and certified?
    General Gibson. All training is conducted at the state-side US Army 
Power Projection Platforms (PPP) regardless of the Airmen's permanent 
duty station. Once an Airman is tasked to deploy in an ILO billet, they 
are scheduled to attend one of the PPPs for combat skills and 
specialized skills training. This includes Airmen deploying from OCONUS 
that are sourced through both Joint Service Solution and Retrained Ad 
Hoc Solution methods.
    To address training requirements for Joint Service Solution and 
Retrained Ad Hoc Solution oversight, Second Air Force hosts a semi-
annual Training and Equipment Review Board (TERB) to review current ILO 
mission training and equipment and determines relevancy, accuracy and 
the core skill sets inherent with specific AFSCs. The methodology used 
at the TERB to determine training requirements is as follows: The 
Request For Forces identifies the Combatant Commander's (CCDR) 
requirements, the minimum our Airmen must be trained to for their 
deployment. The AF Career Field Managers (CFM) and Functional Area 
Managers (FAM) identify the skills currently taught as part of the AFSC 
awarding TT course or advanced supplemental training and ``inherent'' 
to their particular AFSC skill set. These skill sets are matched 
against the CCDR requirements to determine the minimum training 
required from the US Army at the PPPs. Finally, feedback gathered from 
the field is used to determine if additional training is required to 
enhance mission success at the deployed location. The CCDR 
requirements, minus the inherent core Airmen skill sets, plus 
additional functions identified through the feedback systems comprise 
the combat skills and specialized skills training received at the Army 
PPPs.
    These requirements are conveyed to the Army training locations 
through FORSCOM. Airmen are certified as ``fully trained'' by the 
Training Battalion Commanders.
    Mr. Ortiz. Even if service members are performing the same mission 
for another service, they may be performing the mission under very 
different circumstances. For example, an airman doing flight-line 
security at Ramstein AFB, German, faces different challenges when 
guarding the flight line at Balad airbase in Iraq. How is training for 
service members deploying from Outside the Continental United States 
(OCONUS) conducted and certified?
    General Halverson. Commanders of deploying units, whether from 
CONUS or OCONUS, are responsible for validating the readiness of their 
unit and personnel. Critical mission requirements are specified by the 
command in theater requesting support. Associated pre-deployment 
training guidance/requirements are passed to units directed to provide 
support. Deploying units have priority for training facilities and 
training resources. To the extent practical and resourced, theater-
unique training support (e.g., mission unique training venues/
conditions/equipment) is provided to units preparing to deploy. To a 
large extent, Army Centers of Excellence provide specialized training 
support that unit leaders/personnel can access via the web, e.g., 
language training, lessons learned, mobile training teams and 
collaboration with previously deployed leaders with the same mission. 
Before deploying, unit leaders validate that the unit and their 
personnel are adequately trained on mission essential tasks and 
training required by theater. Units receive additional training once 
they arrive in theater.
    Mr. Ortiz. What service-specific facilities were built/established 
for ILO training, what was the cost of these facilities, where are 
they, and what is their long-term intended use?
    Admiral Giardina. Navy has not invested in infrastructure to 
support ILO training. NPDC has established an administrative office at 
Ft. Jackson, SC using existing Army facilities for the express purpose 
of IA management at NIACT, funding upgrades to the facilities. No other 
infrastructure has been built for IA purposes. Similarly, Navy is using 
Army facilities at all the training sites to support the administrative 
support functions.
    Mr. Ortiz. What service-specific facilities were built/established 
for ILO training, what was the cost of these facilities, where are 
they, and what is their long-term intended use?
    General Halverson. There have been no service specific facilities 
built or established for ILO training. There may have been minor 
construction to modify existing facilities at numerous installations 
that have provided this training but this would not change the 
facilities long-term intended use.
    Mr. Ortiz. Chemical and artillery units are being remissioned to 
military police. Even with specialized training, the leadership of 
remissioned units does not have experience comparable to leaders who 
spent their careers in the job. This creates two net effects: core 
skills atrophy without use and strategic risk increases because 
remissioned troops are not qualified to do full-spectrum missions in 
either their original MOS or their new MOS. What is your long-term game 
plan for replacing the forces moved into non-core missions?
    Admiral Giardina. Currently the Navy has no units that have been 
remissioned.
    Mr. Ortiz. Chemical and artillery units are being remissioned to 
military police. Even with specialized training, the leadership of 
remissioned units does not have experience comparable to leaders who 
spent their careers in the job. This creates two net effects: core 
skills atrophy without use and strategic risk increases because 
remissioned troops are not qualified to do full-spectrum missions in 
either their original MOS or their new MOS. What is your long-term game 
plan for replacing the forces moved into non-core missions?
    General Gibson. While working with the Joint Staff and Joint Forces 
Command, the Air Force (AF) worked within the Global Force Management 
process to reduce all non-core competency In-Lieu-Of sourcing. By 
exchanging specific taskings from missions with non-core requirements 
to taskings that were within core mission sets, the AF replaced many 
non-core competency ILO contributions. For example, our Security Forces 
(SF) support numerous Detainee Operation missions. Working through 
JFCOM, SF were able to increase base defense support missions, which 
are in line with AF core competencies, in exchange for Detainee 
Operations missions.
    Mr. Ortiz. Chemical and artillery units are being remissioned to 
military police. Even with specialized training, the leadership of 
remissioned units does not have experience comparable to leaders who 
spent their careers in the job. This creates two net effects: core 
skills atrophy without use and strategic risk increases because 
remissioned troops are not qualified to do full-spectrum missions in 
either their original MOS or their new MOS. What is your long-term game 
plan for replacing the forces moved into non-core missions?
    General Halverson. Transformation to the Army Modular Force is a 
journey that is addressing our capabilities of today without degrading 
tomorrow's fight. This continuous re-evaluation of the demands of 
today's long war also reflects the agility of the Army's institution to 
adapt its units, personnel, and systems to produce trained and ready 
units. Until the Army fully achieves modular transformation across the 
service, the Army will continue to use innovative techniques, such as 
in-lieu-of sourcing, to fill the gaps between available force structure 
and combatant commander's needs. Units selected to perform these unique 
in-theater missions are identified as early as feasible in their 
operational readiness cycle in order to allow commanders to task 
organize and train to the theater specific mission essential tasks. 
With the approved Grow the Army Plan and Army Rebalance Initiatives the 
Army is mitigating capability shortfalls in military police, as well as 
other Combat, Combat Support and Combat Service Support functions. As 
this plan is implemented the need for in lieu of sourcing will be 
further reduced.
    Mr. Ortiz. Please share with us some of the lessons learned that 
have been applied to training for in-lieu-of soldiers, sailors and 
airmen.
    Admiral Giardina. USFF directed Navy Expeditionary Combat Command 
(NECC) to review the NIACT training program. The Navy has conducted 
surveys of the Sailors participating in this training as well as the 
gaining commands to determine if the training met the mission 
requirements. The NECC review and the input from those surveys resulted 
in the NIACT curriculum transitioning from a 12-day to a 17-day POI. 
The revised POI includes added emphasis in first aid, communication, 
and combat skills.
    PRT Conferences have resulted in significant modifications to the 
POI as well as more emphasis on Pre-deployment Site Surveys (PDSS) by 
prospective commanding officers and executive officers. PDSS is 
critical to giving Navy Officers selected to command PRTs an 
understanding of the operating environment and what will be expected of 
them.
    CJTF HOA training has been modified for each rotation based on 
better knowledge of the mission. HOA, like many other missions in 
support of OIF and OEF, have evolving missions which require training 
modifications.
    The CRAM concept was modified from Navy and Army only CRAM 
batteries to two Joint Integrated Batteries (JIB), about one half each 
service, which includes better mix and performance in theater due to 
Army support for the integration of Sailors in the mission.
    ETT and MiTTs have been modified to tailor to specific theater 
requirements.
    Training for Confinment Det was moved from Ft. Leavenworth to Ft. 
Sill so that units could train in a confinement facility that more 
closely resembled facility in theater. Based on theater feedback, the 
facility at Ft. Leavenworth was too ``high-tech''.
    Training for Law & Order Det was modified to include High Risk 
Personnel (HRP) training and Provost Marshall training as a result of 
feedback from theater.
    Mr. Ortiz. Please share with us some of the lessons learned that 
have been applied to training for in-lieu-of soldiers, sailors and 
airmen.
    General Halverson. The Center for Army Lessons Learned (CALL) has 
captured lessons learned through a variety of mechanisms, such as, 
interviews, mission operations with In-Lieu-Of (ILO) Units, and After 
Action Reviews (AARs). Lessons learned from both the field and in 
training are injected into the current training ILO as a routinized 
process. 1s Army approves ILO training Program of Instructions (POI) 
and Memorandum of Instructions (MOI) for post mobilization training of 
all RC units. During this approval process, lessons learned are 
reviewed and incorporated into planned unit training. CALL is working 
with both the Joint Force Provider (JFCOM) and the Army Force Provider 
(FORSCOM) to incorporate the lessons learned in future training 
processes. The system is an open loop system where lessons learned are 
continually captured and feedback is provided to the field. There are 
procedures in place for CENTCOM to provide feedback that is then vetted 
and adjudicated by the Joint Staff for current and future rotations.
    Mr. Ortiz. Please share with us some of the lessons learned that 
have been applied to training for in-lieu-of soldiers, sailors and 
airmen.

    General Gibson.

Logistics Readiness

    Lessons learned are currently being gathered from two separate data 
streams: survey feedback from four distinct data points and solicited/
unsolicited after action reports (AAR). Survey feedback is collected 
from four distinct points during the deployment/training process: 
arrival at the ILO training site, completion at the ILO training site, 
after 30-45 days at the deployed location and at home station after 
completing the deployment. Feedback from the survey data points is 
collected, compiled, aggregated and analyzed in conjunction with the 
AEF deployment cycle and briefed to the Second Air Force Commander. The 
feedback results are used to create a 4-month action plan to guide 
improvements to the process.
    Additionally, Second Air Force has instituted a process which 
brings the Functional Area Managers (FAM) and Career Field Managers 
(CFM) together on a semi-annual basis to review the training and 
equipment requirements for these deployments. The Training and 
Equipment Review Board (TERB) provides a forum for FAMs and CFMs to 
review feedback and lessons learned from the AOR and quickly make 
changes to curriculum, equipment, processing, etc. Through several 
TERBs already conducted, Second Air Force has been able to realize 
process improvement in several areas:

        Streamlined reporting instructions
        Elimination of ``white space'' at training locations
        Additional training requested through feedback to include:

          Blue Force Tracker
          Plus up of Combat Life Saver training requirements (from 10% 
to 30%)
          High Mobility Wheel Vehicle Egress Assistance Trainer
          Survival Evasion Resistance Escape Level B

        Elimination of redundant training already inherent to Air Force 
specialties:

          Land Navigation for Explosive Ordnance Disposal (EOD)
          Law Enforcement training for Security Forces
          Anti-Terrorism Level 1

        Additional AF required equipment based on feedback includes:

          Tactical thigh drop/Modular Lightweight Load-carrying 
Equipment compatible holsters
          Seat belt/strap cutters
          3-point weapon slings
          Tactical flashlights
          Army Combat Uniform patterned Individual Body Armor/Outer 
Tactical Vest
          Conversion kits
          Tactical flame resistant gloves

Security Forces

    The following narratives highlight several lessons learned for 
United States Air Force (USAF) Security Forces (SF) Airmen receiving 
Army training in support of in-lieu-of (ILO) missions.
    1. Headquarters AF Director of Security Forces (HAF/A7S) designated 
HQ USAF Security Forces Center (AFSFC) as the primary coordinator for 
all SF ILO mission taskings and pre-deployment training requirements. 
SF assumed deployment and training oversight for five Army ILO 
missions, trained at six separate Army Power Projection Platform (PPP) 
locations. SF ILO missions included: Detainee Operations trained at Ft. 
Bliss and Ft. Lewis; SECFOR (Force Protection) trained at Ft. Dix and 
Ft. Lewis; Protective Services Detail (PSD) trained at Ft. Leonard 
Wood; Law and Order trained at Ft. Carson and Police Transition Team 
(PTT) trained at Camp Shelby.
    2. Army PPPs provide training for non-traditional SF core 
competencies mandated by Army Forces Command (FORSCOM). HQ AFSFC 
evaluated all ILO missions and compared this mission analysis to Army 
horse blankets or training plans. This ensured SF personnel are 
properly trained and qualified on current ILO mission tactics and 
procedures in the minimum time possible.
    3. HAF/A7S solicited feedback from senior AF Major Command (MAJCOM) 
and US Central Command Force Protection leadership on how best to 
manage and execute the ILO missions. AFSFC improved ILO training by 
conducting training analyses for each ILO mission requirement, followed 
by theater and PPP site visits, evaluating SF performing ILO missions. 
This provided valuable insights necessary to improving the ILO 
management process.
    4. Redundancies occurred in AF mandated pre-deployment training 
when compared to Army ILO pre-deployment training. AF SF training 
either reduced or eliminated many Army pre-deployment topics, by 
educating Army trainers on the skill sets that SF Airmen bring to the 
fight. Another lesson learned eliminated a 14-day temporary duty 
period, by conducting SFs specific training through the use of Mobile 
Training Teams which travel to each of the Army PPPs. This blend of 80 
hours SF training with the Army master training plan saved the AF more 
than $6.7M in travel and temporary duty funds for more than 1.9K 
deployed SF personnel. Elimination of ``white space'' or ineffective 
training time further standardized SF training at six Army PPPs and 
provided combat ready SFs sooner to the deployed location.
    5. SF required training on the most current tactics, techniques and 
procedures (TTPs) from the area of operations (AOR). AFSFC advised Army 
PPP training staffs through use of recently deployed, combat savvy SF 
airman, who highlighted the latest TTPs directly from the combat 
operations theater. This greatly benefited both SF Airmen training at 
the PPP and the Army cadre providing ILO training.
    6. AFSFC also solicited and incorporated weekly troop commander's 
situation reports into Army training plans, making rapid adjustments in 
training schedules and PPP hosting arrangements for SF personnel.
    7. AFSFC also eliminated Soldier Readiness Processing by providing 
documentation of USAF pre-deployment or out-processing procedures 
conducted at home station. This action further lessened white space in 
Army training schedules.
    8. The Chief of Staff of the Air Force tasked Second Air Force to 
be responsible for providing oversight to all AF ILO programs. They 
deployed Personnel Support for Contingency Operations (PERSCO) teams to 
each PPP, facilitating the processing of AF personnel and providing 
constant coordination with FORSCOM and the Army Training and Doctrine 
Command (TRADOC) leadership.

B. The following narratives highlight several lessons learned for AF SF 
Airmen supporting ILO missions, in terms of operations, logistics, 
equipment, military working dog teams and other categories.

    1. AFSFC provides Subject Matter Experts (SMEs) to the PPPs and to 
SF Airmen in training. Their expertise in training requirements is 
pivotal in the development and proper application of training needs in 
preparation for ILO missions. The SMEs also ensure Airmen receive the 
most up to date and current TTPs from troops that have boots on ground.
    2. AFSFC provides a liaison non-commissioned officer (LNO) before 
and during each training session at each PPP. The LNO team provides 
curriculum and technical support to the deploying team members, as well 
as liaison with Second Air Force and Army PPP leadership. The LNO 
relies on being able to reach back to AF MAJCOMs and SF units, 
resolving issues as quickly and efficiently as possible. The LNOs also 
have the capability to provide ``hip pocket training'' in the event the 
schedule is changed at the PPP thus further eliminating ``white 
space.''
    3. AFSFC's Operations Center releases operations orders and 
standardized equipment lists no later than 60 days prior to training 
start date. This ensures all SF personnel pre-deployment tasks have 
been completed prior to ILO training. The Ops Center also ensures 
equipment and logistical shortfalls are identified in a timely manner.
    4. AF Explosive Detector Dog Teams tasked for deployment in support 
of ILO Army and Marine Corps missions attend canine-centric, ground 
combat skills pre-deployment training at Yuma Proving Grounds, AZ. 
Training is conducted under the direction of the Marine Corps and 
continues to repeatedly receive extremely favorable student critiques. 
Some observations were:

       a. Pre-arrival home station training requires attention. Teams 
must be better prepared in the area of ground combat skills before 
reporting for training.
       b. Canine physical fitness is generally inadequate at point of 
entry to training. Training scenarios are intense, lengthy and executed 
under very hot and dry climatic conditions.
       c. Top physical condition is critical to success and serves to 
avoid disabling injury and illness.

Civil Engineering

    Civil Engineers (CE) continues to transform its training regimens 
to ensure deploying airmen are properly trained and equipped to perform 
the missions they're being called upon to perform around the world. Bi-
weekly, CE partner with Second Air Force (AF lead for contingency 
skills training (CST)), FORSCOM, 1st Army, the training sites, and 
sitting commanders in the field to update CST training requirements for 
upcoming deployment taskings.
    In recent forums, field commanders have reported that additional 
exposure to the enemy's latest tactics, techniques, and procedures 
(TTPs) is far more valuable on the battlefield than refresher training. 
As a result, we've amended training for EOD airmen so they receive a 
more focused curriculum to study the enemy's latest TTPs, rather than 
receive refresher training on skills they've successfully employed 
within the past 9 months. We're now applying this same method to 
specialty teams, RED HORSE Squadrons, and Engineer detachments to 
ensure personnel receive focused training that builds upon the latest 
lessons learned from the field.
    Mr. Ortiz. How does the unit-developed theater/mission-specific 
training plan take into consideration the variety of military 
backgrounds, skill sets, and proficiency levels that individuals from 
other services bring to the assigned mission?
    General Halverson. CENTCOM has identified 25 baseline training 
requirements for ILO units and assigned a training requirement to each 
unit requirement form (URF). Upon notification of sourcing, units 
develop theater/mission specific training plans to achieve required 
employment capability levels. Training plans are based on their 
assigned mission, Directed Mission Essential Task List (DMETL) and 
published theater training requirements. Theater and mission specific 
training is executed through a series of key training events prior to 
deployment. These events include, but are not limited to mission-
focused individual, collective and robust Counter-Improvised Explosive 
Device training at the unit's home station or mobilization station.
    Mr. Ortiz. In the face of pressing mission needs and sourcing 
requirements, how much pressure is there on unit commanders to validate 
that the unit has met theater capability and mandatory training 
requirements?
    General Halverson. There is no external pressure on commanders to 
validate that their unit has met theater capability and mandatory 
training requirements. Several units latest arrival dates (LADs) have 
been shifted because the commander determined that their unit did not 
adequately meet the training requirements. Validation is a command 
function. Validation ensures that a unit not meeting the minimum 
deployability criteria is not deployed without the approval of the 
supported combatant commander.
    Mr. Ortiz. Your testimony states that ``direct lines of authority 
[have] been granted between 2nd Air Force, Navy Fleet Forces Command, 
Army Forces Command and 1st Army for the purposes of coordinating 
training arrangements, arrival instructions, and other matters related 
to the conduct of training.'' How does that work in practical terms?
    General Halverson. JFCOM hosts a conference that has attendees from 
all Services, TRADOC and FORSCOM to review training requirements 
assigned by CENTCOM and document any additional training that is 
required. DA publishes an EXORD that directs Army Commands to support 
this training. FORSCOM publishes an order that directs its subordinate 
commands to execute the training that the USAF and USN have asked the 
Army provide. The training command issues a letter to the unit stating 
what training was done. All training is conducted to standard and 
retraining is included in the tasking.
    Mr. Ortiz. What are the selected grade and MOS shortages need to 
meet personnel fill rates mentioned in your testimony?
    General Halverson. HRC was unable to determine what fill rates were 
mentioned in the testimony. The following is a short discussion of the 
critically short skills in the officer corps and the enlisted ranks.
    OFFICER CORPS: The officer corps does not include the specialty 
branches of JAG, Chaplain, and AMEDD. Majors and captains continue to 
be the most critically short grades. This is due to large part to 
structure growth and transformation of the BCTs. These shortages are 
particularly acute in the specialized functional areas (FA).
    For majors, the most critical include:

       Information Operations, FA 30 (46%)
       Information Systems Engineering, FA 24 (54%)
       Foreign Area Officer, FA 48 (56%)
       Strategic Intelligence, FA 34 (57%)
       Force Development, FA 50 (58%)

    There are a total of 15 functional area or branch skills at the 
grade of major (including those 5 listed above) for which the Army can 
fill at a rate of less than 70% of the structure requirements. There 
are an additional 11 functional area or branch skills for which the 
Army can fill at a rate of between 70-85% of the structure 
requirements.
    For captains, most of the critical skill shortages are in 
functional areas and also due to structure growth and transformation of 
the BCTs without a corresponding strategy to transfer captain inventory 
away from basic branch into functional area designations. The Army's 
most critical skills for captain are:

       Strategic Intelligence, FA 34 (0%)
       Simulations Operations, FA 57 (13%)
       Operations Research, FA 49 (18%)
       Information Assurance, FA 53 (20%)
       Acquisition, FA 51 (26%)

    There are a total of 10 functional area or branch skills at the 
grade of captain (including those 5 listed above) for which the Army 
can fill at a rate of less than 70% of the structure requirements. 
There are an additional 4 functional area or branch skills for which 
the Army can fill at a rate of between 70-90% of the structure 
requirements.
    Warrant Officers have very similar issues that effect inventory 
shortages.
    The Army's most critical warrant officer shortages are:

       Air Traffic Services, MOS 150A (0%) This Air Traffic Control MOS 
was taken out of the Army inventory and has now returned. Inventory is 
being re-built to fill this MOS.
       Armament Repair Tech, MOS 913A (59%)
       Human Intel Collection Tech, MOS 351M (60%)
       Counter Intel Tech, MOS 351L (65%)
       Field Artillery Targeting Tech, MOS 131A (71%)

    In addition to these four MOS, there are and additional 8 more for 
which the Army can fill only between 70-90%.
    ENLISTED RANKS: Sergeants and Staff Sergeants are the most 
critically short grades in the critical skills. This is primarily due 
to growth in structure and transformation of the Brigade Combat Teams. 
These shortages are of great concern in the following military 
occupational specialties through FY10:

 
                                                             % Fill of
                           MOS                            AuthorizationsSergeants09L (Translator/Interpreter)                                     13%
21D (Engineer)                                                   78%
21V (Engineer)                                                   88%
89A (Ordnance)                                                    6%
94S (Ordnance)                                                   57%Staff Sergeants09L (Translator/Interpreter)                                      0%
11B (Infantry)                                                   95%
11C (Infantry)                                                   93%
13D (Field Artillery)                                            93%
13F (Field Artillery)                                            96%
13R (Field Artillery)                                            95%
14R (Air Defense)                                                25%
21B (Engineer)                                                   98%
35M (Intelligence)                                               52%
89D (Ordnance)                                                   34%
94D (Ordnance)                                                   67%
94H (Ordnance)                                                   48%
94M (Ordnance)                                                   75%
94S (Ordnance)                                                   49%ENLISTED PRIORITY MOS LIST (CRITICAL SHORTAGES)13R (Field Artillery)                                            72%
14E (Air Defense)                                                90%
31E (Military Police)                                            87%
35F (Intelligence)                                               93%
89D (Explosive Spec)                                             78%
92R (Parachute Rigger)                                           92%
    Mr. Ortiz. In your testimony you state that ``meeting the approved 
requirements of the combatant commanders (as readiness is measured 
against directed mission) may be considered of equal (or greater) 
importance'' than the Army's ability to perform core missions. How does 
that statement fit in the context of strategic risk to national 
security?
    General Halverson. The force requirements requested by Combatant 
Commanders (COCOMs) are based upon their analysis of capabilities and 
capacities needed to execute assigned missions, achieve theater 
strategic objectives, and support national security requirements. The 
Army provides modular units that are tailored and scaled and where 
necessary, appropriately augmented to meet specific requirements. When 
there is a shortage of required capabilities, substitutions may be 
applied to form similar units to meet COCOM requirements. Units 
required to train on other-than-core missions receive additional pre-
deployment training to ensure that they can meet the COCOM mission 
requirements. Since training skills are inherently perishable, a degree 
of core mission atrophy occurs, and consequently the unit temporarily 
becomes less capable of performing its core missions. Implementing the 
Army Force Generation process will improve preparedness and mitigate 
the effects of atrophy on unit core mission skills.
    Mr. Ortiz. In addition to meeting annual unit requirements for 
personnel, the services are also sourcing teams of key officers and 
other unit leaders (primarily E-6 to O-6) to support transition teams 
in Iraq and embedded training teams in Afghanistan. This key leadership 
comes from the same force pool of personnel pulled to man IA billets, 
leaving fewer officers and other key leaders available for deploying 
units. Of the 2,000 Army individual augmentees in the CENTCOM area of 
responsibility, 50% of are mid-grade officers, captain through 
lieutenant colonel. What is the net effect of pulling so many mid-
career officers out of their core Army mission? What impact is this 
having on Army readiness? What efforts are the Army making to ensure 
that additional leaders are being developed and to evaluate the 
effectiveness of units that deploy without their organic leadership, or 
with new leaders?
    General Halverson. This has resulted in a shift in manning 
priorities for all units, less transition Teams and deploying units.
    This has caused units other than Transition Teams and deploying 
units to have lower manning levels. We have also graduated officers 
early from Professional Military Education and delayed attendance for 
some Soldiers in order to meet priority commitments to train and deploy 
complete teams.
    The Army is ensuring that all deploying units are manned not less 
than 90% of their authorized strength 90 days prior to their Mission 
Rehearsal Exercise in order to allow them to train together and form 
and cohesive unit. Additionally, officers who are assigned to 
Transition Teams in Iraq and embedded training teams in Afghanistan 
receive an intensive 60 day training regiment prior to entering 
theater. In order to mitigate the shortages in the non-deploying units, 
we have increased officer and enlisted accessions, inter-service 
transfers and broadened the use of Reserve Component Soldiers and 
Retiree Recall Soldiers to fill active component positions.
    Mr. Ortiz. In your testimony you state that ``In general, all 
milestones are being met but at the expense of supporting GWOT 
requirements by additional deployments between sea tours without a 
standard length shore assignment.'' How often does this occur and what 
is the impact on readiness and retention?
    Admiral Giardina. To date, Navy continues to meet all validated 
missions at sea and ashore. Impacts to Fleet readiness are minimal. The 
Fleet centric nature of Navy's readiness reporting systems makes 
assessing readiness impact ashore more difficult. While Sailors who 
remain behind are working longer and harder to make up for the absence 
of Sailors forward deployed as Individual Augmentees (IA), there is 
currently no measurable impact to readiness ashore. The following table 
reflects the source of Navy's Active Component IA personnel:
------------------------------------------------------------------------
                                                     Total         %
                  IA Type Duty                    Historical  Historical
------------------------------------------------------------------------
CONUS Shore Duty                                     10928      73.61%
------------------------------------------------------------------------
CONUS Sea Duty                                        3112      20.96%
------------------------------------------------------------------------
Overseas Remote Land-base                               34       0.23%
Sea Duty
------------------------------------------------------------------------
Overseas Sea Duty                                      107       0.72%
------------------------------------------------------------------------
Overseas Shore                                         664       4.47%
------------------------------------------------------------------------
    TOTAL                                            14845
------------------------------------------------------------------------
    SHORE                                                       78.09%
------------------------------------------------------------------------
    SEA                                                         21.91%
------------------------------------------------------------------------
                                        Data from MAR 05 to present


    Approximately 80 percent of Navy IAs come from shore duty. To 
alleviate the potential for increased individual personnel tempo 
(ITEMPO) and decreased shore tour lengths, returning IAs are our number 
one distribution priority, we are flexible in balancing the needs of 
individual careers and families, and our detailers are proactively 
engaging IAs in the issuance of follow-on orders. Additionally:

       a. IA tours exceeding 365 days are considered equivalent to 
Forward Deployed Naval Forces (FDNF) tours, meaning that IA personnel 
are being afforded the same priority for coast selection preference 
and/or priority choice of follow-on duty assignments and locations.
       b. IAs from sea duty will maintain existing sea duty projected 
rotation dates (PRD).
       c. The shore duty clock for Enlisted IAs coming from shore duty 
is frozen with:

         (1) 100% day-for-day credit for an IA tour served in a 
hazardous duty zone.
         (2) 50% day-for-day credit for an IA tour served outside a 
hazardous duty zone.
         (3) Reduction of prescribed sea tour (PST) for Sailors 
required to return to sea (for needs of the service) prior to 
completion of their adjusted shore duty time.
       d. Detailers contact officer IAs coming from shore duty to 
discuss options with regard to career progression, professional 
development, and tour lengths, to maximize the length of a shore duty 
extension while keeping the officer's career on track to achieve all 
community milestones.

    Navy does not track total numbers of individuals who do not 
complete a prescribed shore tour due to IA assignment. Where career 
timing or needs of the service dictate that a Sailor return to sea duty 
without completing a standard length shore assignment, detailers are 
tasked to find an equitable solution, on a case-by-case basis that 
meets the needs of the individual and the Navy.
    The enlisted retention environment is generally healthy and we have 
not observed any indicators to suggest that IA tours are adversely 
impacting enlisted retention. While reenlistment rates are down 
slightly in Zones A (0 to 6 years of service) and B (6+ to 10 years of 
service) it is attributable to retention returning to pre-9/11 norms, 
rather than to IA assignments.
    The officer retention environment is also considered to be healthy, 
overall. While we have no indication that IA tours are adversely 
impacting officer continuation, retention tools preclude obtaining a 
clear picture of the Global War on Terrorism effect on officer 
continuation.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    While current retention is within acceptable limits, Navy is 
closely monitoring this situation and post IA deployment retention 
behavior is currently under study by the Center for Naval Analysis. 
While officer and enlisted communities are in the process of assessing 
the impact of IA assignments on community health and retention across 
the force, additional stress is placed on certain High Demand/Low 
Density (HD/LD) communities due to the small pool of available 
personnel and high demand for specific Navy skill sets. These HD/LD 
communities include Explosive Ordnance Disposal, Naval Construction 
Force, Navy Coastal Warfare, Fleet Marine Force Hospital Corpsmen, Navy 
Expeditionary Logistics Support, Navy Special Warfare, Navy Special 
Operations, Medical, Civil Engineer Corps, Engineering Duty Officers, 
Supply, Information Professional, Information Warfare, Judge Advocate 
General, and Intelligence.
    Mr. Ortiz. The Navy is planning an eight-week expeditionary combat 
skills course for all sailors assigned to the Navy Expeditionary Combat 
Command. The course would focus on four aspects of ground warfare: 
moving, shooting, communicating and administering first aid. The 
committee understands that the Navy is looking at possible East Coast 
and West Coast locations for the course, as well as at Army and Marine 
Corps bases. What is the purpose of the eight-week expeditionary combat 
skills course planned for all NECC sailors? Is this not a duplication 
of effort and expense? How do you differentiate this training from the 
Army's or Marine Corps' combat skills training?
    Admiral Giardina. The Navy no longer plans to establish an eight-
week course of instruction specifically to support the NECC forces. 
NECC is now planning a four week expeditionary combat skills course 
designed to prepare all NECC Sailors and Officers for service in Navy 
Expeditionary units. This course is important to NECC for several 
reasons. First, it standardizes NECC baseline combat skills training 
across the entire Force. Currently, basic combat skills are taught in 
several venues by different entities (e.g. EOD, Seabees and others have 
their own basic combat skill curriculums). This course helps us become 
more cohesive as a force and more cost efficient in our training. 
Second, it helps to increase the proficiency and war fighting 
effectiveness of our expeditionary Sailors and Officers. This 
professional force requires a level of training in combat skills such 
as small arms, tactical communications and combat casualty care, which 
is more advanced and substantially different than what the typical 
Sailor assigned to a ship, squadron or submarine may need. With this 
course, Navy will move toward a well-trained NECC Sailor with a greater 
level of combat skills training and a focus on our core competencies, 
including maritime security and force protection. Third, with an 
increased number of Sailors operating in ports and harbors, on rivers 
and in near-shore environments, Navy must develop Sailors and leaders 
with an expeditionary mentality and combat focus.
    The focus of this course is tactical movement, communications, 
weapons proficiency, advanced first aid and the preparation of 
individual Sailors and Officers to excel in their core competencies of 
maritime and port security, explosive ordnance disposal, and maritime 
construction and engineering, among others. This training is based on 
traditional Navy missions' combat skills requirements.
    Current plan is to pilot this course in FY08 at two existing force 
training locations, Construction Battalion Center (CBC) Gulfport and 
CBC Port Hueneme. The Navy Construction Force has been teaching basic 
combat skills at these locations for several years. The existing 
curricula are being updated, enhanced, standardized and offered to 
sailors across the NECC force.
    ECS training is equivalent to what is taught to other service 
members assigned to combat support or combat service support units. It 
is neither the aim nor intent of this course to teach offensive, ground 
combat skills akin to what USMC or Army combat units receive. It is 
designed to provide the basic survival skills that will be needed by 
Expeditionary forces conducting the full spectrum of operations from 
stability and theatre cooperation to security and counter-insurgency.
    Mr. Ortiz. The Committee is aware that in some cases airmen were 
provided as little as 72 hours' notification of deployment. If this is 
the case, it is concerning, particularly when these airmen are being 
asked to deploy as augmentees in a ground combat environment rather 
than with their unit in a standard Air Expeditionary Force rotation. 
JFCOM starts the process 14 months prior to the need. Why does it take 
so long for the Air Force to identify and notify the selected 
individual? What is being done in the Air Force to correct this lack of 
timely notification?
    General Gibson. Air Force policy requires Commanders to notify 
Airmen of their assigned deployment opportunity window upon assignment 
to the unit. Airmen remain assigned to the same deployment window for 
the duration of their assignment to the unit. All Airmen are expected 
to be prepared to deploy even with minimal (72-hours) notice during 
their deployment window period should there be an emerging, short-
notice requirement. The Air Force sources known rotational requirements 
at least 4 months prior to the date the Airman is required to be in 
place at the deployed location. As a matter of course, the Air Force 
sources ``on call'' units first--units in the current deployment 
opportunity window who's Airmen are expected to be prepared to deploy 
at anytime during that period. Reclamas can cause short-notice to 
Airmen--as in cases when someone suddenly becomes non-deployable (i.e., 
broken leg). Additionally, the amount of advance notice can be reduced 
when combatant commanders identify new, short-notice requirements 
needed to meet their war-fighting needs. In these instances the 
sourcing timeline may be shortened and Airmen could receive minimal 
notice before they are required to deploy or report for pre-deployment 
combat skills training. In other cases, the demand on a particular 
career field--primarily to support sister Service or other outside 
agency such as DoS requirements--may result in a short fall for the 
current deployment window. To resolve these anomalies, the Air Force 
reaches forward into the next succeeding deployment window to meet the 
short fall. The air and space expeditionary force (AEF) process is 
designed for quick response. It allows the Air Force agility and 
versatility to adapt and meet the needs of our commanders and war-
fighters on the battlefield.
    Mr. Ortiz. In your testimony you state that the effect of ILO 
training, ``as measured in man-years consumed, is significant.'' How 
significant in terms of man-years consumed and in terms of impact?
    General Gibson. Presently, the AF has entered approximately 8,056 
Airmen into ILO training. With an average training time of 42 days at 
each of the Power Projection Platforms, this equates into approximately 
930 man years expended in this effort.
    Mr. Ortiz. Please expound on some of the other challenges within 
the ILO program that are cited in your testimony and the impact those 
have on Air Force readiness, including: Removing airmen from their 
assigned Air Expeditionary Force rotation cycle; and Exacerbate an 
already-high personnel tempo.
    General Gibson. The Air Force is a full partner in filling ILO 
taskings. AF ILO requirements are expected to be approximately 5,000 
personnel by the end of CY07, increasing to approximately 6,000 by the 
end of CY08. Current AF ILO requirements represent a select set of AF 
capabilities, including logistics readiness, security forces, 
engineers, intelligence, ISR, communications and medical personnel. We 
are also currently providing non-core competency support after 
receiving specialized training in the areas of civil affairs, 
interrogators and detainee and convoy operations. However, a number of 
these capabilities (security forces, Red Horse, EOD, dog teams, etc.) 
are at their max wartime surge level of a 1:1 deploy/dwell ratio.
    ILO requirements add significant levels of stress on deployed 
Airmen as well as the rest of the AF. These tasking have a direct 
effect on readiness since ILO-tasked units and deployed Airmen are no 
longer available for core AF or home-station missions; and the workload 
they would normally share is shifted to other Airmen both at home and 
abroad. Furthermore, an Airmen's skills in AF core competencies are a 
perishable item. When ILO-tasked Airmen return to their home stations 
after deployment, they must be given time and additional training to 
re-hone those skills.
    Mr. Ortiz. The Air Force is starting the Common Battlefield Airman 
Training (CBAT) Course as a five-day class with plans to expand it by 
2010 to a 20-day class that would include physical fitness training, 
self-defense, advanced weapons training, combat medical skills, 
integrated base defense classes, land navigation, and tactical field 
operations. While the Air Force initially will use an Army training 
site, the Subcommittee understands that the Air Force is considering 
three candidate sites for a permanent school, including Arnold Air 
Force Base near Manchester, Tenn.; Moody AFB near Valdosta, Ga.; or 
Barksdale AFB in Bossier City, La. What is the purpose of CBAT? Is CBAT 
a duplication of effort and expense? How do you differentiate this 
training from the Army's or Marine Corps' combat skills training?
    General Gibson. Common Battlefield Airmen Training (CBAT) is a 
training initiative that is part of the ongoing process of transforming 
the Air Force culture to instill a warrior ethos and ensure each and 
every Airman is relevant in light of the changing security environment 
with the proper expeditionary combat skills. The current security 
environment and rigors of the Global War on Terror highlighted combat 
skills deficiencies among Airmen. As a result, the Air Force identified 
the need for a more robust training course to provide designated Airmen 
with the necessary skills to survive and operate effectively ``outside 
the wire.'' CBAT is a foundational school that provides Airmen with 
combat skills training (CST) to teach Airmen how to ``shoot, move, and 
communicate.'' CBAT consists of tasks that are not career-field 
specific but are common to the survival and success of our Airmen on 
the battlefield. In addition, the Army and Marine Corps teach their 
foundational skills at basic training. While the Air Force conducts a 
limited amount of CST at basic training, it chose CBAT as a post-basic 
training module because it focuses on those career-fields that require 
CST as foundational skills.
    CBAT is not a duplication of effort and expense because it provides 
tailored training for Airmen limited to the necessary skills to survive 
and operate effectively ``outside the wire.'' A panel of Air Force 
subject matter experts scrutinized the Army's 40 Warrior Skills and 9 
Battle Drills eventually pairing it down to 19 skills and 8 tasks 
Airmen require proficiency in to operate in the Expeditionary Air 
Force. Additionally, CBAT serves as a consolidation and standardization 
of training. Currently, CBAT-like training is conducted at numerous 
AETC bases, as well as at MAJCOMs and Wings, to provide some level of 
CST for Airmen. CBAT will provide a single venue to standardize and 
synergize efforts that already exist to ensure that we are prepared to 
fight and win not only the current fight but future conflicts as well. 
Finally, the Air Force's three candidate sites will utilize existing 
ranges leveraging capacity currently residing in those resources.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TAYLOR
    Mr. Taylor. Has anyone tracked the casualties among the IAs to see 
if they are suffering a disproportionately high percentage of 
casualties?
    General Halverson. The Army tracks casualties among Individual 
Augmentees (I.A.s) and they are not suffering a disproportionately high 
percentage of casualties. Since the onset of GWOT, the Army has 
suffered 10 casualties that fall into the category of LA.s.
    Admiral Giardina. [The information was not available at the time of 
printing.]
    General Gibson. [The information was not available at the time of 
printing.]

                                  <all>

</pre></body></html>
